No. 19In the

Supreme Court of the United States
SUSAN LEVY,
Petitioner,
v.
BASF METALS LIMITED, BASF CORPORATION,
GOLDMAN SACHS INTERNATIONAL, GOLDMAN
SACHS GROUP, INC., GOLDMAN SACHS & CO.,
GOLDMAN SACHS EXECUTION & CLEARING,
L.P., ICBC STANDARD BANK PLC, UBS AG, USB
SECURITIES LLC, HSBC BANK USA, N.A., LONDON
PLATINUM AND PALLADIUM FIXING
COMPANY LIMITED,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI

Susan J. Levy, Esq.
Counsel of Record
40 East 10th Street, Suite 2K
New York, New York 10003
(212) 962-1965
sjl9265@gmail.com
Counsel for Petitioner

291302

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
The issues-presented are important because they
concern individual rights, a principal that our founders
used to establish our Democracy that allowed a person
to protect her own interests, free from the shackles of
group think. The time has come to address investor rights
in a meaningful way. Many investors have suffered in
silence by experiencing monetary losses without even
understanding how. Class actions are one avenue of
recovery, but in some cases, an investor’s chances of a full
recovery as a class member may be described as riding
on a wing and a prayer. Whether through pension funds
or as in petitioner’s own case by attempting to invest on
her own; investors would now like to realize their right
to proceed in court when necessary and individually.
Therefore, petitioner seeks resolution of the following
questions:
1.

Whether the lower courts erred in failing to apply
American Pipe tolling to petitioner’s opt-out
case?

2.

Whether the lower courts erred in refusing to
apply the Discovery Accrual Rule to petitioner’s
Commodity Exchange Act (“CEA”) claims?
A. Whether petitioner’s monetary losses in her
customer account constituted Actual Notice
of her federal claims?
B. Whether petitioner’s monetary losses in her
customer account standing alone constituted
Inquiry Notice or “Storm Warnings” of her
federal claims?

ii
3.

Whether the lower courts erred in refusing to
apply the Discovery Accrual Rule to petitioner’s
RICO case?

4.

Whether the lower courts erred in refusing to
apply the doctrine of Equitable Tolling based on
Fraudulent Concealment to all federal claims?

5.

Whether the lower courts erred in failing to
consider petitioner’s due process rights as an
opt-out from a companion class action In re
Platinum & Palladium Antitrust Litigation,
1:14-cv-09391, 2017 WL 116962 (S.D.N.Y. 2017)
when dismissing her case as untimely.

6.

Whether petitioner is still a bona fide member of
the Class Action in In re Platinum & Palladium
II, even though her individual case has been
dismissed?

iii
PARTIES TO THE PROCEEDINGS
Petitioner Susan Levy was the plaintiff in the
district court and plaintiff-appellant in the Second
Circuit. Respondents BASF Metals Limited and BASF
Corporation, HSBC Bank USA, N.A., Goldman Sachs
International, The Goldman Sachs Group, Inc., Goldman
Sachs & Co. LLC f/k/a Goldman Sachs & Co., Goldman
Sachs Execution & Clearing, L.P., UBS AG, and UBS
Securities LLC, ICBC Standard Bank PLC, London
Platinum and Palladium Fixing Company Limited were
defendants in the district court and defendants-appellees
in the Second Circuit.

iv
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of this Court, the undersigned
states that:
Respondent BASF Metals Limited’s parent company
is BASF Catalysts UK Holdings Ltd. BASF Metals
Limited and BASF Catalysts UK Holdings Ltd. are
indirect, wholly-owned subsidiaries of BASF SE, a
publicly held European Corporation (Societas Europas).
No other publicly held corporation owns ten percent or
more of BASF Metals Limited.
Respondent BASF Corporation is a wholly owned
subsidiary of BASF Americas Corporation. BASF
Americas Corporation is a wholly owned subsidiary
of BASFIN Corporation. BASF Corporation, BASF
Americas Corporation, and BASFIN Corporation are all
Delaware corporations. BASFIN Corporation is a majority
owned subsidiary of BASF USA Holding LLC, a Delaware
limited liability company. BASF USA Holding LLC is a
wholly owned subsidiary of BASF Nederland BV, a Dutch
limited liability company, which in turn is a wholly owned
subsidiary of BASF SE (Societas Europaea – “SE”), a
publicly traded European Company. BASF Corporation,
BASF Americas Corporation, BASFIN Corporation,
BASF USA Holding LLC and BASF Nederland BV are
not publicly held.
Respondents The Goldman Sachs Group, Inc. has no
parent corporation, and to the best of its knowledge no
publicly held corporation owns 10% or more of its common
stock. Respondents Goldman Sachs International and
Goldman Sachs & Co. LLC are indirect wholly owned

v
subsidiaries of The Goldman Sachs Group, Inc., a publicly
held corporation, and no other publicly held company owns
10% or more of Goldman Sachs International or Goldman
Sachs & Co. LLC. Respondents Goldman Sachs Execution
& Clearing, L.P. was merged into Respondent Goldman
Sachs & Co. LLC on June 12, 2017, and ceases to exist as
a legal entity.
Respondent ICBC Standard Bank PLC identifies
Industrial and Commercial Bank of China Limited and
Standard Bank Group Limited as publicly-held companies
that directly or indirectly own 10% or more of the stock
of ICBC Standard Bank Plc.
Respondent UBS AG is wholly owned by UBS Group
AG, a publicly traded corporation. No publicly held
corporation holds 10% or more of UBS Group AG’s stock.
Respondent UBS Securities LLC’s corporate parents are
UBS Americas Holding LLC and UBS Americas Inc., the
latter of which is wholly owned by UBS Americas Holding
LLC. UBS Americas Holding LLC is wholly owned by
UBS AG.
Respondent HSBC Bank USA, N.A. identifies HSBC
Holdings plc, HSBC Overseas Holdings (UK) Limited,
HSBC North America Holdings Inc., and HSBC USA Inc.
as corporations that directly or indirectly own 10% or more
of any class of HSBC Bank USA, N.A.’s equity interests.
Respondent London Platinum and Palladium Fixing
Company Limited has no parent corporation and no
publicly held corporation owns 10% or more of its stock.

vi
RULE 14.1(b)(iii) STATEMENT
Proceedings in Federal Trial and Appellate Courts
as well as this Court identified below are directly related
to the above-captioned case in this Court:
1. Levy v. BASF Metals, et al., 1:15-cv-07317 (GHW)
(S.D.N.Y 2015) (marked as related case to In re Platinum
& Palladium Antitrust Litigation (Class Action II) 2017
WL 1169626; 14-cv-09391-GHW (S.D.N.Y. 2014.))
The Trial Court’s opinion dismissing Levy v. BASF
Metals, Et. Al. is in Appendix F. It is unpublished but
available at 2017 WL 2533501. A motion for reconsideration
was denied and that order is in Appendix E. It is
unpublished but available at Levy v. BASF Metals, Inc.,
1:15-cv-07317, Docket# 186 (S.D.N.Y. 2017.)
The judgment dismissing petitioner’s case at the trial
court level was entered on October 19, 2017.
2. Levy v. BASF Metals, Et. Al., 17-3823 (2d Cir. 2017.)
The Second Circuit Court of Appeals entered judgment
affirming dismissal of this case on May 2, 2019. The
Second Circuit denied petitioner’s combined motion for
panel rehearing and rehearing en banc on April 22, 2019.
The published opinion of the United States Court of
Appeals for the Second Circuit appears at Appendix C to
the petition. The opinion in Appendix C has been published
at 917 F.3d 106 and is dated February 28, 2019.
The Second Circuit also issued an unpublished
Summary Order relating to Levy v. BASF Metals Ltd,

vii
et al., in Appendix D and is available at 755 Fed. Appx.
29. The Westlaw Federal Appendix decision erroneously
states the date of decision as February 28, 2018 when the
correct date was and is February 28, 2019.
The Second Circuit’s order denying Rehearing/
Rehearing en banc dated April 22, 2019 is unpublished
but reproduced in Appendix B.
3. In this Court, a motion for an extension of time to file
the writ of certiorari was granted on July 15, 2019 by
Justice Ginsberg extending the filing date for the writ of
certiorari until September 19, 2019.

viii
RELATED CASE STATEMENT
Levy v. BASF Metals, et al., 1:15-cv-07317 (GHW)
(SDNY 2015) was marked as related case to In re
Platinum & Palladium Antitrust Litigation (Class Action
II) 2017 WL 1169626; 14-cv-09391-GHW (S.D.N.Y. 2014.).
A judgment was entered in Levy v. BASF, 1:15-cv-07317
(S.D.N.Y. 2015) on October 19, 2017, but no judgment has
been entered in the ongoing related case.
Levy v. BASF Metals, et al., 17-3823, United States
Court of Appeals for the Second Circuit, judgment entered
February 28, 2019 and order denying rehearing and
rehearing en banc April 22, 2019.

ix
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS  . . . . . . . . . . . . .  iii
CORPORATE DISCLOSURE STATEMENT . . . . . . . iv
RULE 14.1(b)(iii) STATEMENT . . . . . . . . . . . . . . . . . . . vi
RELATED CASE STATEMENT  . . . . . . . . . . . . . . .  viii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . .  ix
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . xii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  xiii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTES INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . 2
I. IN TRODUCTION A ND STAT EM EN T
OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
A. Nat u re of t he Ca se a nd Su m m a r y
of Proceedings  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
B. Nature of the Allegations Regarding
Manipulation of the Platinum Markets . . . . . . . 12

x
Table of Contents
Page
REASONS FOR GRANTING THE PETITION . . . . 14
I.

BE C AU S E PE T I T ION ER ’ S OP TOUT CA SE WA S PROPER UNDER
AMERICAN PIPE, THE OPT-OUT’S
CASE SHOULD HAVE PROCEEDED
ALONG WITH THE CLASS. . . . . . . . . . . . . . . 14
A. Petitioner Was Entitled To Proceed
Ba sed On Her Const itut iona l ly
Protected Rights under American
Pipe and Worldcom.  . . . . . . . . . . . . . . . . . . 16
1.

Pe t i t i o n e r ’s c a s e p r e s e n t s
an appropr iate sequel to
CaLPERs v. Anz. . . . . . . . . . . . . . . . . . .  17

B. This Case Presents an Exceptional
Veh icle t o R e solve t he C i r c u it
Conflicts Regarding Application of
American Pipe and is Therefore Ripe
for Consideration. . . . . . . . . . . . . . . . . . . . . . 18
II. BECAUSE THE WELL-ACCEPTED
DISCOVERY ACCRUAL RULE (“DAR”)
DI D NO T A P PLY, CERTIOR A R I
IS APPROPRIATE.  . . . . . . . . . . . . . . . . . . . . . . 20
A. The Lower Courts Misapplied The
Discovery Accrual Rule. . . . . . . . . . . . . . . . 21

xi
Table of Contents
Page
B. The Discovery Accrual Rule Should Have
Applied to the CEA Claim Sounding in
Market Manipulation, 7 U.S.C. §9. . . . . . . . 23
C. Bec au se T he Nat ion a l F ut u re s
A ssociat ion Appea rs t o Have a
Discovery Accrual Rule, An Inference
Can and Should Be Draw n That
Congress Intended To Apply the
DAR To CEA Claims. . . . . . . . . . . . . . . . . . 28
III. THE DAR SHOULD ALSO BE APPLIED
TO PETITIONER’S RICO CASE BASED
ON MAIL AND WIRE FRAUD. . . . . . . . . . . . 29
IV. EQUITABLE TOLLING BASED ON
F R AU DU L EN T C ONCE A L M EN T
ALSO APPLIED TO PETITIONER’S
FEDER A L CL A I M S INCLU DING
THE SHERMAN ACT.  . . . . . . . . . . . . . . . . . . . 32
V.

BECAUSE THE OPT- OUT ’S CA SE
WA S DI S M I S S E D W H I L E T H E
CL A S S AC T ION C ON T I N U E S ,
P E T I T ION E R ’ S DU E P R O C E S S
RIGHTS WERE NOT CONSIDERED. . . . . . . 33

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

xii
TABLE OF APPENDICES
Page
APPENDIX A — MANDATE OF THE UNITED
STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT, DATED MAY 2, 2019 . . . . . . 1a
A PPEN DI X B — OR DER OF T H E
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT . . . . . . . . . . . . . . . . 3a
A P P E N DI X C — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT, DATED
FEBRUARY 28, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . 5a
A PPEN DI X D — OR DER OF T H E
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT, DATED
FEBRUARY 28, 2019 . . . . . . . . . . . . . . . . . . . . . . . . 13a
APPENDIXE—MEMORANDUMOPINIONAND
ORDER OF THE UNITED STATES DISTRICT
COURT IN THE SOUTHERN DISTRICT
OF NEW YORK, DATED OCTOBER 6, 2017  . . . 19a
APPENDIX F — MEMORANDUM OPINION
AND ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE SOUTHERN
DIST RIC T OF N E W YORK , FILED
JUNE 9, 2017 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23a

xiii
TABLE OF CITED AUTHORITIES
Page
CASES
American Pipe & Construction. Co. v. Utah,
414 U.S. 538 (1974)  . . . . . . . . . . . . . . . . . . . . . . . passim
Benfield v. Mocatta Metal Corp.,
26 F.3d 19 (2d Cir. 1994) . . . . . . . . . . . . . . . . . . . . 24, 26
Briskin v. Ernst & Ernst,
589 F.2d 1363 (9th Cir. 1978) . . . . . . . . . . . . . . . . . 8, 23
California Public Employees’ Retirement System
(CalPERS) v. Anz Securities, Inc., et al. ,
137 S. Ct. 2042 (2017) . . . . . . . . . . . . . . . . . . . . . passim
Cancer Fund v.
Cerberus Capital Management, L.P.,
559 F.3d 671 (7th Cir. 2009) . . . . . . . . . . . . . . . . . . . . 31
Cargill Inc. v. Hardin,
452 F.2d 1154 (8th Cir. 1971), cer’t denied,
406 U.S. 932 (1972)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Cohen v. SAC Trading Corp.,
711 F.3d 353 (2d Cir. 2013) . . . . . . . . . . . . . . . . . . . . . . 9
Connors v. Hallmark & Son Coal Co.,
935 F.2d 336 (D.C. Cir. 1991) . . . . . . . . . . . . . . . . . . . 26

xiv
Cited Authorities
Page
Credit Suisse Securities (USA) LLC, et al. v.
Simmonds,
566 U.S. 221, 132 S. Ct. 1414 (2012) . . . . . . . . . . . . . . 33
CSAM Capital Inc., v. Lauder,
67 A.D.3d 149, 885 N.Y.S.2d 473 (1st Dep’t 2009) . . 22
Gabelli v. SEC,
568 U.S. 442, 133 S. Ct. 1216 (2013), rev’g,
653 F.3d 49 (2d Cir. 2011) . . . . . . . . . . . . . . . . . 6, 22, 26
Glater v. Eli Lilly & Co.,
712 F.2d 735 (1st Cir. 1983)  . . . . . . . . . . . . . . . . . . . . 19
Gray v. First Winthrop Corp.,
82 F.3d 877 (9th Cir. 1996) . . . . . . . . . . . . . . . . . . . . . 23
In re Commodity Exchange,
213 F. Supp. 3d 631 (S.D.N.Y. 2016) . . . . . . . . . . . . . . 25
In re Hanford Nuclear Reservation Litig.,
534 F.3d 986 (9th Cir. 2008), cer’t denied sub
nom, E .I. Dupont de Nemours and Co.
v. Stanton, 555 U.S. 1084 (2008) . . . . . . . . . . . . . 15, 19
In re Libor-Based Financial Instruments
Antitrust Litigation,
935 F. Supp. 2d 666 (S.D.N.Y.2013), vac’d on
other grounds sub nom and remanded,
Gelboim v. Bank of America, 823 F.3d 759
(2d Cir. 2016)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

xv
Cited Authorities
Page
In re London Silver Fixing Ltd, Antitrust
Litigation,
213 F. Supp. 3d 530 (S.D.N.Y. 2016) . . . . . . . . . 7, 27, 33
In re Nine West Shoes Antitrust Litigation,
80 F. Supp. 2d 181 (S.D.N.Y. 2000)  . . . . . . . . . . . . . . . 6
In re Platinum & Palladium Antitrust
Litigation (“Platinum & Palladium II”),
2017 WL 1169626, 1:14-cv-09391-GHW
(S.D.N.Y. 2017) . . . . . . . . . . . . . . . . . . . . . . . . . . .  4, 9-11
In re Platinum & Palladium Commodities
Litigation (“Platinum & Palladium I”),
828 F. Supp. 588, 1:10-cv-03617 (S.D.N.Y. 2014) 10, 28
In re Soybeans Futures Litigation.,
892 F.2d 1025 (N.D. Ill, 1995)  . . . . . . . . . . . . . . . . . . 25
In re Worldcom Securities,
496 F.3d 245 (2d Cir. 2007) . . . . . . . . . . . . . 5, 14, 15, 19
K & E Trading & Shipping v.
Radman Trading Corp.,
174 A.D.2d 346, 570 N.Y.S. 2d 557 (1st Dep’t 1991) . 22
Klehr v. A.O. Smith Corp.,
521 U.S. 179, 117 S. Ct. 1984 (1997) . . . 6, 21, 26, 30, 31

xvi
Cited Authorities
Page
Koch v. Christie’s Int’l PLC,
699 F.3d 141 (2d Cir. 2012) . . . . . . . . . . . . . . . . . . . . . 29
Kronisch v. United States,
150 F.3d 112 (2d Cir. 1998) . . . . . . . . . . . . . . . . . . . . . . 8
LC Capital Partners, L.P. v.
Frontier Ins. Group. Inc.,
318 F.3d 148 (2d Cir. 2003) . . . . . . . . . . . . . . . . . . . 7, 21
Levitt v. Bear Stearns & Co.,
340 F.3d 94 (2d Cir. 2003) . . . . . . . . . . . . . . . . . . . . . . 21
Lentell v. Merrill Lynch & Co.,
396 F.3d 161 (2d Cir. 2005), cer’t denied,
546 U.S. 935 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Levy v. BASF Metals, et al.,
2017 WL 2533501 (S.D.N.Y. 2017)
1:15-cv-07371 (GHW) (S.D.N.Y 2015), aff’d,
917 F.2d 106, 17-3823cv (2d Cir. 2019) . . . . . . . . passim
Levy v. Welsh,
1:13-cv-01858 (WHP) (S.D.N.Y. 2013) . . . . . . . . .  10, 11
Merck & Co. v. Reynolds, et al.,
559 U.S. 633, 130 S. Ct. 1784 (2010)  . . . . . . 6, 7, 21, 27
Merrill Lynch Ltd Partnerships Litiga.,
154 F.3d 56 (2d Cir. 1998) . . . . . . . . . . . . . . . . . . . 24, 25

xvii
Cited Authorities
Page
Newman v. Warnaco Group, Inc.,
335 F.3d 187 (2d Cir. 2003) . . . . . . . . . . . . . . . . . . . . . 21
Ortiz v. Fibreboard Corp.,
527 U.S. 815 (1999)  . . . . . . . . . . . . . . . . . . . . . . . . . 6, 15
Rotella v. Wood,
528 U.S. 549, 120 S. Ct. 1075 (2000) . . . . . . . 26, 30, 31
Shah v. Meeker,
435 F.3d 244 (2d.Cir. 2006) . . . . . . . . . . . . . . . . . . . . . 21
State Farm Mut. Auto. Ins. Co. v. Boellstorff,
540 F.3d 1223 (10th Cir. 2008) . . . . . . . . . . . . . . . 15, 19
Stein v. Regions Morgan Keegan Select High
Income Fund Inc.,
821 F.3d 780 (6th Cir. 2016) . . . . . . . . . . . . . . . . . . . . 19
Strobl v. New York Mercantile Exchange,
768 F.2d 22 (2d Cir. 1985), cer’t denied,
474 U.S. 1006 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Troyer v. NFA,
2017 WL 2971962 (N.D. IN 2017) . . . . . . . . . . . . . . . 29
United States v. Kubrick,
444 U.S. 111, 100 S. Ct. 352 (1979)  . . . . . . . . . 6, 21, 28
Urie v. Thompson,
337 U.S. 163, 69 S. Ct. 1018 (1949) . . . . . . . . . . . . . . . . 6

xviii
Cited Authorities
Page
Wal-mart Stores, Inc. v. Dukes,
564 U.S. 338, 131 S. Ct. 2541 (2011)  . . . . . . . . . . . 6, 15
Winn-Dixie Stores, Inc., et al. v. Eastern
Mushroom Marketing Cooperative, et al.,
2019 WL 130535 (E.D.P.A. 2019) . . . . . . . . . . . 1, 15, 19
STATUTES, RULES AND REGULATIONS
7 U.S.C.
§ 9  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 23, 27
§ 9(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
§ 9(3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
§ 21  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
§ 25(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
§ 25(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 5, 14
15 U.S.C.
§ 1  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
§ 2  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
§ 15(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2, 29-30
28 U.S.C.
§ 1254(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 9
Local Rules of the Southern District of New
York, Rules for the Division of Business
Among District Judges Rule 13  . . . . . . . . . . . . . . . . 10
Na t i o n a l F u t u r e s A s s o c i a t i o n C o d e o f
Arbitration Section 5  . . . . . . . . . . . . . . . . . . . . . . . 3, 29

xix
Cited Authorities
Page
SECONDARY AUTHORITIES
1c Corman, Limitations of Actions,
§ 6.5.5.1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
2 Corman, Limitations of Actions,
§ 9.71 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

1
Petitioner Susan J. Levy, respectfully petitions for a
writ of certiorari to review the judgment of the United
States Court of Appeals for the Second Circuit in this case
entered on May 2, 2019, Pet. App. A, 1a.
OPINIONS BELOW
The orders and decisions of the Court of Appeals for
the Second Circuit (App. Pet. 5a, 13a) are reported at
917 F.3d 106 and at 755 Fed. Appx. 29. The order of the
Second Circuit denying Rehearing/Rehearing En Banc
is unpublished, but can be found at Levy v BASF Metals
Inc., 17-3823cv (2d Cir. April 22, 2019.), Pet. App. 3a.
The opinion of the district court granting respondents’
motion to dismiss is unpublished, (Pet. App. 23a) but
available at 2017 WL 2533501. The district court’s denial
of petitioner’s motion for reconsideration (Pet. App. 19a) is
unpublished, but available at Levy v. BASF Metals, Inc.,
1:15-cv-07317 #186 (S.D.N.Y. 10/06/2017.)
JURISDICTION
The Judgment of the court of appeals was entered on
May 2, 2019 after the appellate court denied petitioner’s
request for a Rehearing/Rehearing En banc on April 22,
2019. That Reconsideration Order is unpublished but is
in Pet. App. B., 3a.
Justice Ginsberg granted a motion to extend the
time to file a petition for a writ of certiorari on July
15, 2019 and extended the time to file the petition for a
writ of certiorari to September 19, 2019. This Court has
jurisdiction pursuant to 28 U.S.C § 1254(1).

2
STATUTES INVOLVED
COMMODITIES EXCHANGE ACT:
7 U.S.C. §25(c), Jurisdiction; statute of limitations;
venue; process
The United States district courts shall have exclusive
jurisdiction of actions brought under this section. Any
such action shall be brought not later than two years after
the date the cause of action arises. Any action brought
under subsection (a) of this section may be brought in
any judicial district wherein the defendant is found,
resides, or transacts business, or in the judicial district
wherein any act or transaction constituting the violation
occurs. Process in such action may be served in any
judicial district of which the defendant is an inhabitant
or wherever the defendant may be found.
Title 15 - COMMERCE AND TRADE
CHAPTER 1 -MONOPOLIES AND COMBINATIONS
IN RESTRAINT OF TRADE
§15b. Limitation of actions
Any action to enforce any cause of action under section
15, 15a, or 15c of this title shall be forever barred unless
commenced within four years after the cause of action
accrued. No cause of action barred under existing law on
the effective date of this Act shall be revived by this Act.

3
NATIONAL FUTURES ASSOCIATION CODE OF
ARBITRATION
SECTION 5. TIME PERIOD FOR ARBITRATION.
No Arbitration Claim may be arbitrated under this
Code unless an Arbitration Claim or notice of intent to
arbitrate (see Sections 6(a) and (C) is received by NFA
within two years from the date when the party filing
the Arbitration Claim knew or should have known of the
act or transaction that is the subject of the controversy.
Except as is provided in Sections 6(f) and (h) below, no
counterclaim, cross-claim or third-party claim may be
arbitrated under this Code unless it is asserted in a timely
filed Answer in accordance with Section 6(e) below. NFA
shall reject any claim that is not timely filed. If, in the
course of any arbitration, the Panel determines that the
requirements of this section have not been met as to a
particular claim, the Panel shall thereupon terminate the
arbitration of the claim without decision or award.
I.

INTRODUCTION AND STATEMENT OF THE
CASE.

The law regarding statutes of limitations continues
to present a maze of confusion for litigants whether
acting individually or as part of a class action. The case
at bar presents an excellent opportunity for this Court
to clarify this important area of the law in what appears
to be several issues of first impression. The case at bar
also presents an important sequel to the recently decided
case of California Public Employees Retirement System
(CalPERS) v. ANZ, 137 S. Ct. 2042, 2058 (2017) where
this Court in a 5-4 decision declined to apply American
Pipe tolling where the federal statute at issue therein,

4
contained a statute of repose. Here, because the RICO and
Commodity Exchange Act claims as well as the Sherman
Act claims do not contain any statutes of repose, blocking
application of American Pipe tolling ab initio; petitioner
respectfully requests a writ of certiorari to answer the
question left open in CalPERS v. ANZ. 137 S. Ct. 2042
(2017.)
The issue regarding application of Amer ican
Pipe tolling is of utmost importance because once the
companion Class Action, In re Platinum & Palladium
Antitrust Litigation (Class Action II) 1:14-cv-09391GHW (S.D.N.Y. 2014), was interposed in 2014, ten months
prior to petitioner’s filing—that defined a class from 2008
through 2014; all members of the class’s claims including
the 2008 petitioner’s, appeared to have been subject
to Equitable Tolling or the Discovery Accrual Rule, or
both, since the 2014 class action is proceeding, but not the
petitioner’s individual opt-out case. See In re Platinum
& Palladium Antitrust Litigation, 1:14-cv-09391-GHW
Docket #179, 2017 WL 1169626 (S.D.N.Y. March 28, 2017.)
As a 2008 member of the defined class, petitioner does
not wish to have one set of rights as a class member, in this
case with respect to tolling and accrual of the applicable
claims; yet as an opt-out, she has been precluded based on
another set of standards at the pleading stage. She would
also like to know if she still is a class-member and may
proceed with the other 2008 class-members?
Therefore, a writ of certiorari is requested to
answer the question as to whether petitioner’s case was
appropriately dismissed where a companion class action
was commenced on petitioner’s behalf and was timely, just

5
as in CalPERS v. ANZ, 137 S. Ct. 2042 (2017.) CalPERS v.
ANZ, also identified a split in the circuits that still exists
today regarding whether an opt-out, like petitioner here,
can timely proceed prior to class certification and whether
an opt-out is protected under American Pipe tolling
from dismissal based on timeliness under this posture.
Because the Second Circuit did not appear to follow its
own precedent in In Re Worldcom Securities, 496 F.3d
245 (2d Cir. 2007), which would have allowed petitioner’s
claims to be tolled; there are two excellent reasons to
take up this case.
Notwithstanding American Pipe tolling, here the
Second Circuit also departed from well-settled precedents
that should have afforded petitioner the same tolling
rights and accrual rights presumptively enjoyed by the
similarly-situated 2008 members of the class to which
petitioner was or is a part. The class members appear to
have enjoyed these principles, even though they knew or
should have known what petitioner knew in 2008 regarding
their account balances—that there were declines in the
account values. Although this fact was enough to bar
petitioner’s case from proceeding, it appears not to have
disturbed the 2008, 2009, 2010 and 2011 class members
who would have also been estopped from proceeding based
on the Commodity Exchagne Act’s (“CEA” hereinafter)
two-year statute of limitations, where the class was filed
in 2014. See 7 U.S.C. 25(c), Pet. App. 6a, 7a.
The Discovery Accrual Rule has been traditionally
applied in these types of cases, where Congress has
remained silent on the accrual method in the text of the
statute. Klehr v. A.O. Smith Corp., 521 U.S. 179, 191
(1997). It appears that petitioner also lost the benefit
of this age-old Discovery Accrual Rule relegating her

6
opt-out case to that of a second-class citizen. Merck v.
Reynolds, 559 U.S. 633 (2010); Klehr A.O. Smith Corp.,
521 U.S. 179 (1997), United States v. Kubrick, 444 U.S.
111 (1979), see also, Gabelli v. SEC, 133 S. Ct. 1216. (2013),
Urie v. Thompson, 337 U.S. 163 (1949.) Thus, this case is
respectfully being submitted for Supreme Court review to
clarify these important principles and correct the errors
petitioner believes were committed below so that the optout, who has constitutional protections, will have parity
at the pleading stage with the other 2008 class members.
Any other result would create a dual track—one for class
members, and the other for opt-outs in violation of the
opt-outs’ due process rights. See Wal-mart v. Dukes, 564
U.S. 338, 363 (2011), Ortiz v. Fibreboard Corp., 527 U.S.
815, 846 (1999)(“The constitutionally protected right to
opt-out comes from ‘our deep-rooted historic tradition
that everyone should have his own day in court.’”(quotation
marks omitted.))
With respect to the Sherman Act claims, 15 U.S.C.
§1, §2, although an Injury Accrual Rule has been applied
generally; here, the lower courts’ refusal to afford
petitioner the privilege of Equitable Tolling based on
Fraudulent Concealment was also a departure from
precedent where the allegations included a price-fixing
scheme which is considered self-concealing. See In re
Nine West Shoes Antitrust Litig. 80 F. Supp.2d 181,
194 (S.D.N.Y. 2000). Additionally, the trial court made
a finding of fact that the London Price-Fixing Scheme
at issue in this case was “self-concealing” and ongoing
from 2008 through 2014. Pet. App. 43a. Despite the
concealment involved, the lower court refused to equitably
toll petitioner’s Sherman Act claims based on the solitary
fact that petitioner like many investors had knowledge of

7
her balances in her trading account and finding that those
losses alone qualified as actual knowledge of her entire
claim and injury. Pet. App. 16a, 17a, 44a. Because this
conclusion is an impossibility, such an exacting standard
could not be met by any reasonable person.
With respect to both Equitable Tolling and the
Discover y Accr ual Rule, the lower cour t placed
inappropriate reliance on the fact that petitioner
experienced monetary losses in her trading account. Pet.
App. 10a. The holding below directly contradicted this
Court’s prior holding with respect to Equitable Tolling
based on Fraudulent Concealment in Credit Suisse
Securities (USA) LLC, et al. v. Simmonds, 132 S. Ct. 1414
(2012). It also contradicted New York Federal Precedent
that applies equitable tolling based on fraudulent
concealment, notwithstanding knowledge of losses in
one’s account statement. See, In re London Silver Fixing,
Ltd, Antitrust Litigation, 213 F. Supp. 3d 530, 572-574
(S.D.N.Y. 2016.). Thus, there are several reasons that this
Court should grant certiorari.
Thirdly, because the statute of limitations defense
typically requires a fully developed record, it has
traditionally not been successful at the pleading stage; and
it should not have been here. So many facts were dehors
the record. See LC Capital Partners, L.P. v. Frontier
Ins. Group. Inc. 318 F.3d 148, 156 (2d Cir. 2003)(Inquiry
Notice is a fact intensive investigation “often inappropriate
for resolution on a motion to dismiss under rule 12(b)
(6).”) As such, the record was incomplete and allegations
made in a complaint in 2015 were used erroneously to
show what petitioner knew about her case back in 2008.
See Pet. App. 10a, 11a. Therefore, the lower court erred

8
by holding without a sufficient factual record that an
investor’s realization of her monetary losses standing
alone was actual notice of an Commodities Exchange Act
and RICO injury. Pet. App. 10a.
These holdings did not appreciate well-settled
precedent in this Court as well as the Second Circuit and
other courts that would have attributed the more likely
scenario for the investment losses to natural market
volatility, poor investment advice or just bad luck. In
fact, other courts as well as the Second Circuit itself
have expressively taken the opposite view of the view
of the lower courts’ here that such monetary losses in
a customer account do not provide sufficient notice for
accrual purposes. See Briskin v. Ernst & Ernst, 589
F.2d 1363, 1368 (9 th Cir. 1978.)(Court reversed dismissal
holding that it was a jury question as to whether failure
to pay dividend and decline by 85% of the account value
put plaintiffs on Inquiry Notice of a fraud;) see also,
Kronisch v. United States, 150 F.3d 112, 121 (2d Cir. 1998)
(“[A] claim will accrue when the plaintiff knows, or should
know, enough of the critical facts of injury and causation
to protect himself by seeking legal advice.” (internal
quotation marks omitted)).
Therefore, again, this Court should decide this conflict
as to what significance, if any, the losses in an investor’s
account bear in determining accrual of a claim based on
fraud or market manipulation. Because petitioner was
not even afforded the traditional Inquiry Notice accrual
method, there was no opportunity for her to demonstrate
that despite her diligent efforts, she could not unmask
the self-concealing London Price-Fixing Scheme until
it revealed itself to her while reading the 2014 Class

9
Complaint. See Cohen v. SAC Trading Corp., 711 F.3d
353 (2d Cir. 2013)(Second Circuit recognized the reading
of a complaint was valid notice of plaintiff’s claim under
the Discovery Accrual Rule.)
Therefore, the opt-out case was extinguished at the
pleading stage based on the statute of limitations defense;
while the companion class action entitled In re Platinum
& Palladium Antitrust Litig. 1:14-cv-09391-GHW,
Docket#179, 2017 WL 1169626 (S.D.N.Y. 2017) filed only
ten months prior to petitioner’s case is still proceeding
and also includes presumptively petitioner who is a 2008
Platinum NYMEX holder, and Class member.
It appears that the statute of limitations defense was
not even raised in the companion class action, and there
was no mention of it in the trial court’s decision and order
regarding the first motion to dismiss the Class Complaint
which was granted and denied in part. See In Re Platinum
and Palladium Antitrust Litigation, 2017 WL 1169626,
1:14-cv-09391 Docket #179 (S.D.N.Y. 03/28/2017).
A.

Nature of the Case and Summary of Proceedings

The claims here relate to market manipulation or price
fixing of the Platinum and Palladium global markets that
effected trading on the NYMEX Exchange. Just like Gold
and Silver, Platinum is traded on the Precious Metals
desk at various investment banks and brokerage houses,
like those respondents. From 2008 to 2014, Platinum
and Palladium were traded both in the Physical (Spot)
and Futures Markets, and still are today. During the
relevant time period, the physical market for Platinum

10
and Palladium was located in London, England and the
Futures Market for Platinum and Palladium was located,
in petitioner’s home state, the Empire State. Although
both markets are subsets of the same relevant market,
petitioner was an investor in and owner of NYMEX
Futures Platinum Contracts from approximately
January through September, 2008. Her losses coincided
with trading days in August, 2008 when some of the
respondents were allegedly engaging in manipulative
price fixing conduct.
Petitioner commenced her case on September 16,
2015. She filed her case after reviewing the case of In Re
Platinum and Palladium Antitrust Litigation, 1:14-cv09391 (S.D.N.Y. 2013)(“In Re Platinum and Palladium,
II” or “Class Action II”) which was filed on November 25,
2014. Petitioner filed her case as a related case to In Re
Platinum and Palladium, II pursuant to the rules of the
Southern District of New York. See, Rules for the Division
of Business Among District Judges, Rule 13 (S.D.N.Y.).
Petitioner decided to institute her own legal proceeding
because she did not want to get lost in the shuffle. At the
preliminary hearing petitioner explained that she had
received a prior partial settlement in the other unrelated
class action naming her again as a 2008 class member in
In re Platinum & Palladium Commodities Litigation
1:10-cv-03617 (S.D.N.Y. 2014) (Class Action I.) Class
Action I also settled in addition to her companion case.
She had decided to commence her own case as an opt-out
plaintiff entitled Levy v. Welsh, 1:13-cv-01858. (S.D.N.Y
2013). These opt-out cases were time-consuming, but
petitioner made the judgment that her interests were best
protected by opting-out ab initio. She started to realize

11
there were so many others who could not protect their
own rights as she was trying to do. It did make her think
about principals of fairness and how to promote that goal
which is important to her for herself and others.
The claims in Levy v Welsh 1:13-cv-01858 (S.D.N.Y
2013) are distinct from the facts in the instant case of
Levy v BASF, 15-cv-07317 (S.D.N.Y 2015) because the
manipulative scheme in the first class action related
to “banging the close transactions” which effected the
settlement prices on the NYMEX Exchange at the close
of the Bell in New York and appears to have nothing in
common with the instant allegation of a London Price
Fixing Scheme. After learning about the second class
action, sometime in 2014, petitioner felt confused. During
the next ten months, petitioner diligently studied all the
cases mentioned above to see if the parties were in privity
with each other preclusion or if there were any issue
preclusion or preclusion Claim. When she realized that
the cases were virtually unrelated, she decided to file suit.
The only overlying issue was how each independent
set of actors proximately caused damages to petitioner’s
account. On March 28, 2017, the trial court denied in part
and granted in part the Second Class Action’s motion to
dismiss upholding the validity of the market manipulation
claims under the Commodities Exchange Act, see, In re
Platinum and Palladium Antitrust Lit. 1:14-cv-09391,
Doc.# 179, 2017 WL 1169626 (S.D.N.Y 03/28/2017);
however, a few months later on June 9, 2017, the trial
court granted the motion to dismiss petitioner’s related
case based on the statute of limitations defense. Pet. App.
23a. It appeared to petitioner that an asymmetry existed
to her detriment.

12
B. Natu r e of t he A lleg ation s R eg a r d i ng
Manipulation of the Platinum Markets.
The gravamen of the second class action as well as
petitioner’s opt-out case of Levy v. BASF, is that during
the relevant time period, four auctioneer respondents
convened twice daily in London, by telephone, to establish
the benchmark rate in Spot Platinum and Palladium.
This benchmark rate was then used to price NYMEX
Futures Platinum contracts traded in New York. The
non-auctioneer respondents, allegedly benefitted from,
participated in, aided and abetted and/or conspired with
the four auctioneer respondents with respect to trading
activities involving Platinum and Palladium Futures
Contracts from 2008 through 2014. (“The relevant
period.”). The London Platinum and Palladium Fixing
Company, Ltd. (“LPPFX” hereinafter) was a British
Trade Association exclusively made up of the four
auctioneer respondents for the purpose of administering
the twice-daily, London Fixing Auctions.
Petitioner also alleges that these respondents were
horizontal competitors in the Platinum Marketplace who
agreed to set the prices of Platinum in restraint of trade.
Thus, petitioner claims a classic case of price fixing per
se. She also claims inter alia that these respondents
monopolized the prices of Platinum as well as controlled
the entire global price and supply of Platinum. Because
price-fixing is also defined under the Commodities
Exchange Act as market manipulation and because there
is no preemption, petitioner also interposed a claim under
7 U.S.C. § 9. Strobl v. New York Mercantile Exchange, 768
F.2d 22 (2d Cir. 1985.)

13
Petitioner also alleges Civil RICO because mailings
and wirings were used to facilitate this Scheme to
allegedly defraud the members of the investing public
such as petitioner. These mailings and wirings allowed
respondents to take positions that were advantageous to
their proprietary trading positions at petitioner’s expense;
because futures trading is alleged to be a zero-sum game.
As such, petitioner’s positions were bound to fail
and did fail allegedly due to market manipulation in the
summer of 2008 due to a sudden and unforeseen market
collapse. Therefore petitioner’s analysis of her investments
based on the fundamental principles of supply and demand
failed and instead the uneconomic principles of price-fixing
appeared to have crashed the market where it should have
been rising. This case appears to be another iteration of
other global benchmark manipulations seen during this
time period similar to FOREX, LIBOR, Gold, Silver, the
ISDA Fix and many other instruments.
The only unique question about this particular case is
why is a member of the investing public and an efficient
enforcer of the Sherman Act, such as petitioner, now
suddenly out-of-court notwithstanding her meritorious
case, and where the companion class action is continuing?
Now, the stakes are high, because if justice cannot be
served in this Court, then respondents, who may be too
big to fail, will not have to compensate victims to the
full extent of the law; and they can continue to defeat
legitimate claims on motions to dismiss—never even
reaching merits discovery. This result would be a travesty,
but a real possibility; hence petitioner is seeking a writ of
certiorari as a final attempt to right this terrible wrong.

14
She is not appealing just for herself, although she is
advocating on her own behalf; but she knows that there
are other voiceless citizens, who have suffered terribly and
similarly to her who would like the law to be crystal clear
that if a party engages in market manipulation and causes
price artificiality in the relevant market, such party will
be expected to pay actual damages exactly as stated in
the Commodities Exchange Act, 7 U.S.C. §25(a)(1).
Petitioner also claims in this case other disruptive
and manipulative trading practices harming her account
including Spoofing that contributed to the sudden collapse
of the Platinum market in August, 2008.
REASONS FOR GRANTING THE PETITION
I.

BECAUSE PETITIONER’S OPT-OUT CASE WAS
PROPER UNDER AMERICAN PIPE, THE OPTOUT’S CASE SHOULD HAVE PROCEEDED
ALONG WITH THE CLASS.

Petitioner’s right to proceed with her opt-out case,
appears to have been fully protected against a dismissal
based on the statute of limitations defense under this
Court’s holding in American Pipe v. Utah, 414 U.S.
538 (1974) as well as the Second Circuit’s application of
American Pipe Tolling in In re WorldCom Securities
Liti., 496 F. 3d 245 (2007).
The lower court appears to have departed from its
prior holding in In re Worldcom Securities, 496 F.3d
245 (2d Cir. 2007) and apparently joined the minority of
circuits who appear split on the issue of whether an optout who commences an individual action prior to class
certification is entitled to tolling under American Pipe

15
in cases like petitioner’s. See In re Worldcom Securities
Litigation, 496 F.3d 245 (2007); In re Hanford Nuclear
Reservation Litig., 534 F.3d 986, 1009 (9 th Cir. 2008),
cert. denied sub. nom. E.I. Dupont de Nemours and
Co. v. Stanton, 555 U.S. 1084 (2008); State Farm Mut.
Auto. Ins. Co. v. Boellstorff, 540 F.3d 1223, 1235 (10 th Cir,
2008); see also, Winn-Dixie Stores, Inc., et al. v. Eastern
Mushroom Marketing Cooperative, et al., 2019 WL 130535
(E.D. PA January 8, 2019.)(“[N]either the Supreme Court
nor the Third Circuit has answered the tolling question
at issue here: whether the class action tolling doctrine
applies when a purported class member chooses to file an
individual lawsuit before class certification is decided ... ”)
Thus, the case at bar would present an excellent
opportunity to resolve this circuit split. It is crucial to
promoting fairness for members of the investing public.
Defense counsel appears to have made the decision
to waive their statute of limitations defense because it
was never asserted in their motions to dismiss nor even
addressed by the trial court in the related class action.
Respondents should not be successful at cherry picking
the opt-out case by asserting the statute of limitations
defense against a solitary member of the class who prefers
to exercise her constitutionally protected opt-out rights
by instituting her own case prior to class certification. See
Wal-mart Stores Inc. v. Dukes, 564 U.S. 338, 363 (2001);
Ortiz v. Fibreboard Corp., 527 U.S. 815, 846 (1999.)
The opt-out petitioner was therefore entitled to the
law of the case doctrine, since she was also a 2008 class
member. Although only one solitary petitioner can get
hurt now; in the future, this case could be used as binding
precedent to extinguish claims for numerous claim holders

16
such as CalPERS members. Thus, the issue is ripe for
resolution.
A.

Petitioner Was Entitled To Proceed Based On
Her Constitutionally Protected Rights under
American Pipe and Worldcom.

Because of the importance of this issue and because
of the lower courts neglected to appreciate precedent,
this Court should consider this case. Here, the trial court,
notwithstanding the filing of a companion class action,
refused to afford any tolling rights under American Pipe.
Pet. App. 42a, n.5, Levy v. BASF, 1:15-cv-07317 Docket
#170, page 14, fn. 5 (S.D.N.Y. 2017). Instead, the trial
court concluded:
Plaintiff believed that by tweaking her 2012
lawsuit by adding new parties and copying
facts from a class action complaint, she could
find another route to recover her 2008 losses.
This approach cannot succeed. While the
Court recognizes that Ms. Levy feels wronged,
plaintiffs cannot simply file new complaints
every time they hear of a potential avenue of
recovery particularly after years have passed.
Here, Ms. Levy’s federal claims are untimely,
and she is not entitled to equitable tolling of the
elapsed statute of limitations. Defendants joint
motion to dismiss Plaintiffs Second Amended
Complaint is GRANTED.
Pet. App. 47a.
The trial court overlooked the fact that once petitioner’s
2008 claims were properly made part of the class action

17
filed in 2014; petitioner had rights under American Pipe.
Petitioner did not fare much better on appeal, and under
the Second Circuit’s de novo review, the lower court left
the issue of American Pipe tolling alone and affirmed.
Pet. App. 5a, 13a. At this juncture, petitioner would not
only like to protect her constitutionally protected right as
an opt-out, but at the same time to perhaps change the
hearts and minds of all those who have viewed petitioner
as a nuisance or worse; instead of someone seeking to
protect her due process rights. Under American Pipe
and its progeny, petitioner should not have to apologize for
doing what she did at great financial and emotional cost to
herself, which was nothing more than trying to be made
whole as best as she could under the law.
Therefore, when she learned of the London Price
Fixing case in 2014, when the case presented itself to
her, she wanted to act on her own behalf. She used that
ten-month period, between the time she read the second
class action complaint and filed her own related case, to
evaluate the claims. Her allegations were alleged in good
faith after a careful examination of the class complaint in
addition to her own knowledge. She also reviewed the class
expert’s opinion which she found on the internet. She was
convinced about the merits of the case.
1.

Petitioner’s case presents an appropriate
sequel to CalPERS v. ANZ.

Because just recently, this Court clarified the reach
and scope of American Pipe tolling in the case where a
federal statute contained a statute of repose, this case is
ripe for review. Here, this case presents a similar dilemma
without the statutes of repose. In a close 5-4 decision, this
Honorable Court decided that Congress, by putting in a

18
statute of repose in a particular federal statute, barred
the doctrine of American Pipe tolling. Although that
question has been answered for now, more issues abound.
The natural question that remains under American Pipe,
is whether the federal statutes presented here including,
the Sherman Act, RICO, and Commodities Exchange Act
can be tolled under American Pipe for an opt-out who
files prior to class certification notwithstanding any other
principles of tolling or accrual.
The issue is important and will effect litigants for
years to come. Justice Ginsberg’s powerful and eloquent
dissent shows the importance of granting certiorari here,
as she observed: “Today’s decision impels courts and class
counsel to take on a more active role in protecting class
member’s opt-out rights.” CalPERS v. ANZ, 137 S. Ct.
2042, 2058 (2017.)
As such, this case presents a further opportunity to
actively manage this evolving area of the law and hopefully
for the public good. Based on this valid dicta, this case
should be taken up for further review.
B. This Case Presents an Exceptional Vehicle
to Resolve the Circuit Conflicts Regarding
Application of American Pipe and is Therefore
Ripe for Consideration.
In determining which cases get chosen for review, an
important consideration is whether the circuits are split.
Here, there is such a split and therefore the time is ripe
to resolve such split.
A review of the circuit courts that have considered
whether America Pipe tolling applies to opt-outs who have

19
brought their own cases prior to class certification, and
after a timely commenced class action, have viewed the
issues diametrically as reflected in the divergent holdings.
This petitioner would like all the circuits to afford such
tolling.
The Second Circuit, Ninth and Tenth Circuits appear
to allow American Pipe tolling in cases like petitioner’s.
See In re Worldcom Securities Litigation 496 F. 3d 245
(2007); In re Hanford Nuclear Reservation Litig., 534
F.3d 986, 1009 (9th Cir. 2008), cert. denied sub. nom., E.I.
Dupont de Nemours and Co. v. Stanton, 555 U.S. 1084
(2008); State Farm Mut. Auto. Ins. Co. v. Boellstorff,
540 F.3d 1223, 1235 (10 th Cir, 2008); see also, Winn-Dixie
Stores, Inc., et al. v. Eastern Mushroom Marketing
Cooperative, et al., 2019 WL 130535 (E.D.PA January 8,
2019.)(“[N]either the Supreme Court nor the Third Circuit
has answered the tolling question at issue here: whether
the class action tolling doctrine applies when a purported
class member choose s to file an individual lawsuit before
class certification is decided.”)
The Sixth Circuit and First Circuit appear to see it
the other way, and would not allow for American Pipe
tolling absent class certification where an opt-out decides
to proceed prior to class certification, but after a class
action has been commenced on behalf of the opt-out
plaintiff. See, Stein v. Regions Morgan Keegan Select
High Income Fund Inc., 821 F.3d 780, 789 (6th Cir. 2016);
Glater v. Eli Lilly & Co., 712 F.2d 735 (1st Cir. 1983)
(holding that: American Pipe says nothing about “a class
member’s ‘ability to maintain a separate action while class
certification is still pending.’” Id. at 739.)

20
Thus, based on this real conflict that will greatly
effect many litigants’ decision whether or not to opt-out,
any advisory opinion by this Court would be extremely
helpful for potential opt-outs to decide wisely how they
would like to proceed in the future.
II. BECAUSE THE WELL-ACCEPTED DISCOVERY
ACCRUAL RULE (“DAR”) DID NOT APPLY,
CERTIORARI IS APPROPRIATE.
Because petitioner was familiar with the Discovery
Accrual Rule prior to commencing her case and believed
the application of the Discovery Accrual Rule (“DAR”)
was a given, she was alarmed to learn that she would not
be afforded this accrual method. It also appeared that had
she remained with the class, her 2008 claims would be
deemed timely. Seeking resolution, she studied the lower
courts’ decisions, but found no solace. It appears that the
lower courts dispensed with the age-old requirement
that a person learn of the triggering data in the public
domain to alert one of the fraud, and then such person
must act diligently to unmask the claims. By removing this
analysis, and simply applying a straight injury discovery
rule, rights have been lost along the way.
The set of decisions, Pet. App. C, D, F, 5a, 13a, 23a
demonstrate that the lower courts broke with well-settled
precedent in the Second Circuit and the Supreme Court
which required triggering data of critical facts describing
other elements of an offense, such as scienter, and not just
monetary losses, to trigger the running of the statute of
limitations. Such critical data may include the identity of
the perpetrators, facts showing the scheme involved or
facts relating to causation. See CalPERS. v. ANZ, 137 S.

21
Ct. 2042, 2055, U.S. v. Kubrick, 444 U.S. 111, (1979); see
also, Merck & Co., Inc. v. Reynolds, et al., 559 U.S. 633
(2010), Gabelli v. S.E. C. 568 U.S. 442 (2013); Klehr v. A.O.
Smith Corp., 521 U.S. 179, 191, 117 S. Ct. (1984); accord,
See LC Capital Partners, L.P. v Frontier Ins. Group, Inc.,
318 F.3d 148 (2d Cir. 2003); Newman v. Warnaco Group,
Inc. 335 F. 3d 187 (2d Cir. 2003); Levitt v. Bear Stearns &
Co., 340 F.3d 94 (2d Cir. 2003); Lentell v. Merrill Lynch
& Co., 396 F . 3d 161 (2d Cir. 2005), cert. denied, 546 U.S.
935 (2005); Shah v. Meeker, 435 F.3d 244 (2d Cir. 2006).
By only requiring knowledge of the actual monetary
loss to commence the running of the statute of limitations
on claims involving fraud and manipulation, the Second
Circuit has in effect replaced the Discovery Accrual Rule
with a straight Injury Accrual rule. See Pet. App. 10a,
35a. This sea-change is unprecedented and did not appear
to apply to the class, but only to the individual opt-out,
petitioner, who dared to break from the pack.
A.

The Lower Courts Misapplied The Discovery
Accrual Rule.

The logic in applying a straight Injury Discovery rule
instead of a Discovery Accrual Rule should fail in this case
and others because it is unworkable. Pet. App. 10a, 35a.
By restricting the knowledge necessary to proceed with
a claim to only financial losses appearing in a customer’s
account; an investor who lost value due to normal market
risk will now be forced to start to investigate a potential
claim just based on their losses alone. Even though no
other critical facts exist showing that untoward conduct
has occurred, a potential claimant will have to hire an
expert nevertheless. In fact, this Court confirmed this
logic in Gabelli v. S.E.C. 568 U.S. 442 (2013):

22
Most of us do not live in a state of constant
investigation; absent any reason to think we
have been injured, we do not typically spend
our days looking for evidence that we were lied
to or defrauded. And the law does not require
that we do so. Instead, courts have discovered
the discovery rule, providing that the statue of
limitations in fraud cases should typically begin
to run only when the injury is or reasonably
could have been discovered.”
Gabelli v. S.E.C., 568 U.S. 442, 451, 133. S. Ct. 1216, 1222
(2013).
The Discovery Accrual Rule exists not only in federal
cases but also under state law like in the State of New
York where causes of action sounding in financial fraud
are routinely heard as well as in pendent state law claims
in federal court. To now have two divergent standards,
one for federal court and another for state court would
be troublesome. In fact, the Appellate Division, First
Department expressly held in the case of CSAM Capital
Inc. v. Lauder, 67 A.D.3d 149, 155 (1st Dep’t 2009) that
“[K]nowledge of the fraud cannot be imputed to the
investor as a result of the losses they experienced.” The
Appellate Division First Department, also held in CSAM
Capital that “[‘m]ere suspicion will not suffice as a ground
for imputing knowledge of the fraud.” (K & E trading &
Shipping v. Radman Trading Corp., 174 A.2d 346, 570
N.Y.S.2d 557, 558 (1st Dep’t 1991.) Id. at 156.
Therefore, as a threshold issue, this Court should
consider whether the existence of losses in a customer’s
account such as petitioner’s in 2008 even gave rise

23
to Inquiry Notice let alone Actual Notice that a selfconcealing market manipulation, the London Price Fixing
Scheme, was on-going and effecting her account in 2008
where the self-concealing price-fixing scheme allegedly
lasted from 2008 all the way through 2014. See Pet. App.
43a.
In fact, the Second Circuit’s published decision in
Levy v. BASF, Pet. App. 5a now creates a split with the
Ninth Circuit Court of Appeals which does not recognize
investor losses as valid triggering data to commence the
accrual period of the Statue of limitations. See Gray v.
First Winthrop Corp. 82 F.3d 877, 881 (9th Cir. 1996)(poor
financial performance standing alone does not necessarily
suggest securities fraud ... but could be explained by poor
management, general market conditions or other events
unrelated to fraud and therefore was deemed insufficient
to place the plaintiff investors on inquiry notice of fraud);
Briskin v. Ernst & Ernst, 589 F.2d 1363, 1368 (9th Cir
1978.) This Court should resolve this split by weighing
in on the critical issue which will help investors manage
their affairs.
Therefore, based on this split, this Courts should
grant the writ of certiorari.
B. The Discovery Accrual Rule Should Have
Applied to the CEA Claim Sounding in Market
Manipulation, 7 U.S.C. §9.
The Second Circuit departed from its own precedent
in now holding that petitioner was on Actual Notice of her
CEA claim just based on the losses in her trading account
and without knowing of any of the other four elements of

24
a market manipulation, CEA claim. Pet. App. 10a. Prior
to this case, the Second Circuit did not expect an investor
to have actual knowledge of a complicated claim based on
losses standing alone and actually took the opposite view
that investor losses standing alone did not commence the
running of the statute of limitations. See Merrill Lynch
Ltd. Partnerships Litiga., 154 F.3d 56, 60 (2d Dep’t 1998);
Benfield v. Mocatta Metal Corp., 26 F.3d 19 (2d Cir. 1994.)
Therefore, based on the Second Circuit’s changed position,
a writ is called for to clarify this principle.
Here, the lower court refused to apply the DAR, in
essence depriving petitioner of a reasonable time period
in which to learn of the critical facts or “triggering data”
to support her market manipulation claim under the
Commodities Exchange Acct, 7 U.S.C. §9(1) and §9(3).
Because claims for market manipulation are like fraud
claims and include scienter, deceit and trickery, the
DAR should have been applied to these CEA claims. The
only difference between a market manipulation scheme
compared to a fraud scheme is that, in the fraud case,
words are used either as material misrepresentations or
material omission to skew a market and defraud investors;
whereas in a market manipulation case, conduct is also
used to move a market uneconomically where the actors
have enough market power to literally effect a market to
go in their desired-direction. As a result, a fraudulent
marketplace exists where the manipulator can simply buy
and sell positions in a fashion completely divorced from
the fundamentals of supply and demand.
As such, in both fraud and manipulation cases, markets
become uneconomic, injuring customers along the way,
who have entered the markets trying to make investment

25
decisions based on fundamental analysis. In fact, market
manipulation cases have included fraudulent statements
as well to coincide with the market manipulation, and
both fraud and manipulation go together hand-in-hand
in many cases. See In re Soybeans Futures Liti., 892 F.
Supp. 1025, 1031 (N.D. Ill, 1995), citing, Cargill Inc. v.
Hardin, 452 F.2d 1154, 1163 (8th Cir. 1971)(“recognizing
that floating false rumors which affect prices is a common
manipulative device.)
Because of this strong similarity between fraud and
market manipulation cases, the Discovery Accrual Rule
has generally been applied to market manipulation cases
until this case at bar. See, In re Commodity Exchange, Inc.,
213 F. Supp. 3d 631, 675 (S.D.N.Y. 2016)(Discovery Accrual
Rule applied to class action members from 2004 to 2013
regarding market manipulation of Gold); In re LIBORbased Financial Instruments Antitrust Litigation, 935
F. Supp. 2d 666, 700 (S.D.N.Y. 2013.)(Discovery Accrual
Rule applied to CEA claims for LIBOR-based instruments
sold over an Exchange.)
However, all of a sudden, the lower court’s refusal to
apply the DAR is astonishing in light of the long-standing
and binding precedent cited above, and therefore a writ
of certiorari is sought to reverse the lower courts and
reinstate petitioner’s meritorious case. See Merrill Lynch
Ltd. Partnerships Litiga., 154 F.3d 56, 60 (2d Dep’t 1998.)
Here too, there was good reason to apply the Discovery
Accrual Rule to the CEA case as well as the RICO case
based on allegations sounding in wire and mail fraud
because RICO like the CEA is also silent with respect
to any statutes of repose. Where Congress is silent on

26
an accurual method, courts have applied the Discovery
Accrual Rule to the statute of limitations provisions of
those federal statutes. See, Merck v. Reynolds, 559 U.S.
633 (2010); Rotella v. Wood, 528 U.S. 549, 555 (2000), Klehr
v. A. O. Smith Corp., 521 U.S. 179, 191, 117 S. Ct. 1984
(citing Connors v. Hallmark & Son Coal Co., 935 F.2d
336, 342 (D.C. Cir. 1991), and 1 C Corman, Limitations of
Actions 6.5.5.1, p. 449 (1991)(“Federal Courts generally
apply a discovery accrual rule when a statute is silent
on the issues…); See also, Benfield v. Mocatta Metals
Corp., 26 F.3d 19 (2d Cir. 1994); In Re LIBOR Financial
Instruments Litigation, 935 F. Supp. 2d 666, 700 (S.D.N.Y.
2013).
The lower courts have previously and generously
applied the DAR in so many other cases, and it should have
also applied it here. See e.g., Gabelli v. SEC, 568 U.S. 442
(2013). As a practical matter, the plethora of precedents
here in the Supreme Court would have applied the
Discovery Accrual Rule in a logical way so that petitioner
could learn the essential facts to plead her case. Just
knowing about one’s financial losses is just not enough
information to accrue the cause of action in light of the
self-concealed market manipulation going on at the time
back in 2008, when the losses were incurred. Therefore,
there was simply not enough available information to
frame a complaint until 2014. See Pet. App. 43a.
No where in the lower court’s decision, did the
traditional Inquiry Notice analysis come into play.
Nobody considered petitioner’s due diligence, and nobody
mentioned how petitioner would have been able to unmask
a self-concealing fraud. Pet. App. 43a. However, it appears
that the class was allowed to proceed based on their
good-faith allegations of fraudulent concealment. These

27
allegations were the only requirement to equitably toll
the statute of limitations in a very similar case involving
the Silver Fixes. See In re London Silver Fixing Ltd.
Antitrust Litigation, 213 F. Supp.3d 530, 572-573
(S.D.N.Y. 2013); In re Platinum & Palladium Antitrust
Lit., 1:14-cv-09391, Docket #179, 17 WL 4169626 (S.D.N.Y.
2017), Pet. App. 46a.
Thus, the lower courts now have made it virtually
impossible for any diligent person to unmask her claim
because the lower court eliminated the essential element
of the DAR that there be some triggering data in the
public domain to apprise a reasonable person of the critical
information to file her claim as explained in Merck v.
Reynolds, 559 U.S. 633, 644 (2010.)
The lower courts’ approach may encourage clever
fraudsters who are better able to hide their misconduct
from the public for as little as two years. This reward for
fraudsters will incentivize them to better manage their
frauds knowing the statute of limitations will start to
run as soon as a customer’s losses appear in a customer’s
account.
In fact, because individual losses are not even part
of the claim when establishing a market manipulation
claim under the CEA, this element should not have been
considered to accrue the cause of action. Pet. App. 11a, 47a.
The market manipulation provision in 7 U.S.C. §9 requires
four elements to be established to support recovery
including that: (1) defendants had the ability to influence
the relevant market, (2) defendants intended to move
the relevant market, (3) the existence of a manipulated
market, and (4) loss causation of a manipulated market
by defendants’ conduct. Once these four elements are

28
established, an individual’s loss causation or the fifth
element, appears to be inferred. See, In re Platinum &
Palladium Commodities Litigation, 828 F. Supp. 588,
600-601 (S.D.N.Y. 2011.)
Additionally, based on the element of scienter, it
is unrealistic to assert, as the lower court did, that a
petitioner had actual knowledge of her CEA claim just
based on her losses as reflected in her customer accounts.
In fact, where the scheme is self-concealing, as in this case,
personal losses alone will not even alert the plaintiff that
they have any cognizable legal injury. See U.S. v. Kubrick,
444 U.S.111, 121-122 (1979)(To frame a complaint, one
needs to know about Injury and causation.)
The lower court’s reliance on citations to petitioner’s
operative complaint filed in 2015 to establish that petitioner
had “Actual” knowledge to start the clock on her claims,
makes no sense because those allegations were made
seven years later, after petitioner had had ample time to
figure out what had happened in her account. See Pet. App.
10a. At the time, in 2008, petitioner believed her personal
losses were related to a legitimate market crash, and there
was no indication of fraud or manipulation early on.
C.

Because The National Futures Association
Appears to Have a Discovery Accrual Rule,
An Inference Can and Should Be Drawn That
Congress Intended To Apply the DAR To CEA
Claims.

Here, it was disturbing to find out that there would
be no accrual of the claim under the DAR, where the
same CEA claim would be subject to the DAR, if brought

29
in Arbitration before the NFA, a Registered Futures
Association pursuant to 7 U.S.C.§ 21. A review of the
National Futures Association’s Code of Arbitration Section
5 allows claimants to bring arbitrations: “within two years
from the date when the party filing the Arbitration Claim
knew or should have known of the act or transaction
that is the subject of the controversy.” See NFA Code
of Arbitration §5. NFA is the only Registered Futures
Association, in the United States, and it should know how
Congress intended to frame the accrual rule for CEA
claims. Because all NFA rules are subject to oversight by
the Commodity Futures Trading Commission (“CFTC”),
upon information and belief NFA’s discovery accrual rule
is an excellent indication that Congress intended to allow
the CEA to be subject to the DAR. See Troyer v. NFA,
2017 WL 2971962 *4 (ND. IN 2017) (“NFA operates under
the oversight of the CFTC, the federal government’s
regulator for the futures industry.”) (citations omitted.)
Now, under the Second Circuit’s holding, one would be
better served by filing a claim for arbitration rather than
filing in court, since the DAR is in the code of arbitration.
However, because a litigant should be subject to the same
rule whether in arbitration or in court, a writ of certiorari
is indicated in this case to correct this asymmetry.
III. THE DAR SHOULD ALSO BE APPLIED TO
PETITIONER’S RICO CASE BASED ON MAIL
AND WIRE FRAUD.
The Second Circuit has been applying the Discovery
Accrual Rule to RICO cases since at least 2012, and there
was no reason to stop now. Koch v. Christies’s Int’l PLC,
699 F. 3d 141 (2nd Cir. 2012). Although the RICO statutes

30
are analogized to the Clayton Act provision, in 15 U.S.C.
§ 15(b), this Court recognized in binding dicta a strong
inclination to apply the DAR to RICO claims based on
mail and wire fraud. Klehr v. A.O. Smith Corp., 521 U.S.
179, 188 (1997):
We do not say that a pure injury accrual rule
always applies without modification in the civil
RICO setting in the same way that it applies
in traditional antitrust cases. . . Furthermore,
there is some debate as to whether the running
of the limitations period depends of plaintiff’s
awareness of certain elements of the cause of
action.
This case will allow this Court to clarify its thoughts
and hopefully apply the DAR to this RICO claim involving
mail and wire fraud requiring scienter since there are no
prohibitions to doing so in the text of the RICO statutes.
Considering the difficulty in reaching a jury on any
Civil RICO claim, deserving citizens will be deprived once
again of the protections of the RICO statute which are
most welcome under these circumstances.
There have been four different accrual methods
competing to apply to RICO, including: (1) Injury
Discovery, (2) the Discovery Accrual Rule, (3) Injury and
Pattern Discovery, and (4) the Last Predicate Act. This
Court has already eliminated the last two rules in Rotella
v. Woods, 528 U.S. 549 (2000), and Klehr v. A.O. Smith
Corp, 521 U.S. 179 (1997) from consideration and for good
reason. So, now the only two remaining accrual methods
to be considered are the ones at issue in this case.

31
The late Justice Scalia sagaciously realized that
the time had come to address head-on the accrual rules
for RICO claims where mail and wire fraud are alleged
requiring scienter. See Klehr at. 196. Applying Merck v.
Reynolds to the case at bar, would ineluctably mean that
here too with a RICO case, a person would be entitled to
accrual under the DAR in order to plead scienter. Thus
application of the DAR should be utilized here so that an
ordinary investor’s case can proceed. It seems sensible to
apply the DAR as the Second Circuit has already been
doing prior to the instant case.
In fact, the confusion below may be related to the
misquotations of cases where courts discussed, out
of context, the element of knowledge of an injury to
commence the running of the statute of limitations such
as in Rotella v. Woods, 528 U.S. 549 (2000), and Cancer
Fund v. Cerberus Capital Management, L.P., 559 F.3d
671 (7th Cir. 2009), Pet. App. 9a, 10a. However, in both
Rotella and Cerberus, each plaintiff there understood
the critical information concerning their claims early
on, unlike in this case. In both those miscited cases, as
a matter of fact, the plaintiffs also knew of the causes of
their injuries within the statute of limitations. Therefore,
because each plaintiff had actual knowledge of at least
two elements of their claim, unlike in this case, where the
element of causation was admittedly missing until 2014,
those cases are inapposite.
It should also be noted that the element of causation
in a non-mail and non-wire fraud RICO case is normally
known to the plaintiff because RICO proximate causation
is an exacting standard to meet and closely tethered to
the injury itself. Thus, to the extent the lower courts

32
misapplied these holdings to make it seem as though only
an “injury” was known to the plaintiffs when the statute
of limitation began to run; this Court should issue a writ
to clarify this obvious confusion that could have profound
effects in changing the DAR to an Injury Discovery Rule.
IV. E Q U I T A B L E T O L L I N G B A S E D O N
F R AU D U L E N T C O N C E A L M E N T A L S O
A PPLIED T O PETI TION ER’ S FEDER A L
CLAIMS INCLUDING THE SHERMAN ACT.
Another basis for dismissing the opt-out’s case but
not the 2008 class, was the lower court’s refusal to apply
the well-settled doctrine of Equitable Tolling Based on
Fraudulent Concealment. Pet. App. 16a. The class also
made strong allegations regarding Equitable Tolling
based on Fraudulent Concealment. This case does
present an extraordinary circumstance where the global
scheme included ICBC, which stands for the Industrial
and Commercial Bank of China, HSBC, the Hong Kong
Shanghai Bank of China, Goldman Sachs, which owned a
stake in ICBC, upon information and belief during part
of the relevant time period and BASF Metals, Inc.
However, instead of applying the three traditional
criteria to the Sherman Act claims that require a
showing that: (1) the cause of action was self-concealing or
concealed during the statute of limitations, (2) the cause
of action was unknown to the plaintiff during the statute
of limitations period, and (3) the plaintiff acted diligently;
the lower court changed the second criterion and held that
knowledge of one’s monetary losses precluded application
of the doctrine. This change is just as unworkable and
unfair in this context, as it was with respect to the DAR

33
and for the same reasons as discussed herein. Knowing
of one’s monetary losses would not alert a diligent person
to the fact that there was a self-concealing fraud or
scheme, on-going at the very same time. Here, in this case,
application of this exacting standard would preclude any
diligent person from equitable tolling based on fraudulent
concealment.
In fact, the lower court’s holding directly contradicts
this Court’s holding in Credit Suisse Securities (USA)
LLC, et al. v. Simmonds, 566 U.S. 221, 227, 132 S. Ct. 1414,
1420 (2012) where this Court held “[W]hen a limitations
period is tolled because of fraudulent concealment of facts,
the tolling ceases when those facts are, or should have
been, discovered by Plaintiff. 2C Corman Limitation of
Actions §9.7.1 pp. 55-57 (1991)” Id. at 1420. See also In re
London Silver Fixing Ltd., Antitrust Litigation, 213 F.
Supp. 3d 530, 572-574 (S.D.N.Y. 2016.) Certainly, knowing
of one’s losses should not be considered knowledge of the
entire claim. Thus, certiorari is requested.
V. BE CAU S E T H E OP T- OU T ’ S CA S E WA S
DISMISSED WHILE THE CLASS ACTION
CONTINUES, PETITIONER’S DUE PROCESS
RIGHTS WERE NOT CONSIDERED.
Clearly, the 2008 members of the class action, like the
2009, 2010, and 2011 members of the class, all had access
to their account statements and presumptively read these
statements showing a decline in value, just like petitioner;
yet these class members are continuing to proceed, while
petitioner cannot based on her knowledge of the losses
in her account. Because the 2008 class members are still
proceeding, it appears petitioner’s case is still viable as a
class member, but not individually.

34
This result appears incongruous; and therefore a
reversal is respectfully requested.
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
				

Respectfully submitted,
Susan J. Levy, Esq.
Counsel of Record
40 East 10th Street, Suite 2K
New York, New York 10003
(212) 962-1965
sjl9265@gmail.com
Counsel for Petitioner

September 19, 2019

APPENDIX

1a
Appendix AOF THE UNITED
APPENDIX A — MANDATE
STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT, DATED MAY 2, 2019
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
At a Stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 28th day of February, two
thousand and nineteen.
SUSAN LEVY,
Plaintiff-Appellant,
v.
BASF METALS LIMITED, BASF CORPORATION,
GOLDMAN SACHS INTERNATIONAL, GOLDMAN
SACHS GROUP, INC., GOLDMAN SACHS & CO.,
GOLDMAN SACHS EXECUTION & CLEARING,
L.P., ICBC STANDARD BANK PLC, UBS AG,
UBS SECURITIES LLC, HSBC BANK USA, N.A.,
LONDON PLATINUM AND PALLADIUM FIXING
COMPANY LIMITED,
Defendants-Appellees.

2a
Appendix A
Before: Ralph K. Winter,
Rosemary S. Pooler,
		
Circuit Judges,
Ronnie Abrams,
		
District Judge.*
JUDGMENT
Docket No. 17-3823
The appeal in the above captioned case from a
judgment of the United States District Court for the
Southern District of New York was argued on the district
court’s record and the parties’ briefs. Upon consideration
thereof,
IT IS HEREBY ORDERED, ADJUDGED and
DECREED that, for the reasons stated in the Court’s
opinion and summary order, the judgment of the district
court is AFFIRMED.
A True Copy
For the Court:
Catherine O’Hagan Wolfe
United States
Catherine O’Hagan Wolfe,
Court of Appeal
/s/ Catherine O’Hagan Wolfe
For the Second
Clerk of the Court
Circuit
/s/ Catherine O’Hagan Wolfe

* Judge Ronnie Abrams, of the United States District Court
for the Southern District of New York, sitting by designation.

3a
B
AppendixAppendix
B — ORDER
of the
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
DOCKET NO: 17-3823
At a stated term of the United States Court of Appeals
for the Second Circuit, held at the Thurgood Marshall
United States Courthouse, 40 Foley Square, in the City
of New York, on the 22nd day of April, two thousand
nineteen.
Susan Levy,
Plaintiff-Appellant,
v.
BASF Metals Limited, BASF Corporation,
Goldman Sachs International, Goldman
Sachs Group, Inc., Goldman Sachs & Co.,
Goldman Sachs Execution & Clearing,
L.P., ICBC Standard Bank PLC, UBS AG,
UBS Securities LLC, HSBC Bank USA, N.A.,
London Platinum and Palladium Fixing
Company Limited,
Defendants-Appellees.

4a
Appendix B
ORDER
Appellant, Susan Levy, filed a petition for panel
rehearing, or, in the alternative, for rehearing en banc.
The panel that determined the appeal has considered the
request for panel rehearing, and the active members of the
Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O’Hagan Wolfe,
/s/ Catherine O’Hagan Wolfe
Clerk

5a
Appendix COF THE UNITED
APPENDIX C — OPINION
STATES COURT OF APPEALS FOR THE SECOND
CIRCUIT, DATED FEBRUARY 28, 2019
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
August Term, 2018
Docket No. 17-3823
SUSAN LEVY,
Plaintiff-Appellant,
v.
BASF METALS LIMITED, BASF CORPORATION,
GOLDMAN SACHS INTERNATIONAL, GOLDMAN
SACHS GROUP, INC., GOLDMAN SACHS & CO.,
GOLDMAN SACHS EXECUTION & CLEARING,
L.P., ICBC STANDARD BANK PLC, UBS AG,
UBS SECURITIES LLC, HSBC BANK USA, N.A.,
LONDON PLATINUM AND PALLADIUM FIXING
COMPANY LIMITED,
Defendants-Appellees.1
October 18, 2018, Argued
February 28, 2019, Decided
1. The Clerk of the Court is directed to amend the caption
as above.

6a
Appendix C
Before: WINTER and POOLER, Circuit Judges, and
ABRAMS, District Judge. 2 .
Appeal from United States District Court for the
Southern District of New York (Gregory H. Woods, J.)
dismissing appellant Susan Levy’s second amended
complaint in which she alleges claims under the
Commodities Exchange Act, the Racketeer Influenced and
Corrupt Organizations Act, the Sherman Act, and New
York law related to alleged manipulation of the platinum
futures market. We affirm the bulk of the district court’s
decision in a summary order published simultaneously
with this opinion. We write separately to address Levy’s
Commodities Exchange Act claims and hold that they
accrued when she discovered her injury in 2008, not when
she discovered the manipulation scheme she alleges or
the identity of the defendants. Therefore, the limitations
period on those claims expired in 2010, well before she
filed the present lawsuit.
Affirmed.
PER CURIAM:
Appellant Susan Levy, an attorney proceeding pro se,
brought this lawsuit in an effort to be made whole for her
2008 losses in the platinum futures market. She alleges,
in sum, that BASF Metals Limited, BASF Corporation,
Goldman Sachs International, Goldman Sachs Group,
2. Judge Ronnie Abrams, United States District Court for
the Southern District of New York, sitting by designation.

7a
Appendix C
Inc., Goldman Sachs & Co., Goldman Sachs Execution
& Clearing, LP, HSBC Bank USA, NA, ICBC Standard
Bank PLC, UBS AG, UBS Securities LLC, London
Platinum and Palladium Fixing Company Ltd., and twenty
unnamed John Does conspired to manipulate the New
York Mercantile Exchange platinum futures contract
market in violation of the Commodities Exchange Act
(CEA), 7 U.S.C. § 1 et seq., the Racketeer Influenced and
Corrupt Organizations Act (RICO), 18 U.S.C. § 1961 et
seq., the Sherman Act, 15 U.S.C. §§ 1, 2, and New York
law. The district court (Gregory H. Woods, J.) dismissed
her federal claims as time barred and declined to exercise
supplemental jurisdiction over Levy’s state law claims.
Levy v. BASF Metals Ltd., 1:15-cv-7317-GHW, 2017
WL 2533501, at *9 (S.D.N.Y. June 9, 2017). We affirm
the bulk of that decision in a summary order we publish
simultaneously with this opinion. We write separately to
address Levy’s CEA claims and hold that they accrued
when she discovered her CEA injury in 2008, not when
she discovered the alleged manipulation scheme or the
identity of the defendants.
BACKGROUND
Levy began trading in the platinum futures market in
2008 at what she alleges were artificially inflated prices.
Based on her review of the platinum market, she took a
long position with the expectation that platinum prices
would soar even higher than market predictions. However,
on August 15, 2008, the platinum market crashed, causing
Levy to lose her entire investment.

8a
Appendix C
Levy filed suit in April of 2012 against a different set
of defendants that she alleged manipulated the platinum
market (and, by extension, the platinum futures market)
by engaging in so-called banging the close transactions.
She claimed that the defendants in that case manipulated
the value of platinum futures contracts by placing large
platinum orders at the end of, or immediately after, the
trading day, resulting in increased settlement prices of
platinum futures contracts. In other words, Levy alleged
that the defendants in her first lawsuit engaged in a pump
and dump scheme that manipulated the value of platinum
futures in violation of the CEA, RICO, the Sherman Act,
and New York law. That case was transferred from the
Eastern District of New York to the Southern District of
New York in 2013 so it could be before the same district
court judge presiding over a related class action lawsuit.
See generally Levy v. Welsh, No. 12-CV-2056 (DLI)
(VMS), 2013 WL 1149152 (E.D.N.Y. Mar. 19, 2013). Levy
settled the Welsh lawsuit in 2014, but the settlement did
not provide Levy with a complete recovery.
Levy filed the present action on September 16, 2015,
after she received in the fall of 2014 a copy of a class
action complaint containing similar allegations to the
ones she now asserts. See generally In re Platinum and
Palladium Antitrust Litig., 1:14-cv-9391-GHW, 2017
WL 1169626 (S.D.N.Y. Mar. 28, 2017). In this suit, Levy
claims, in sum, that Defendants-Appellees conspired to
fix the price of platinum and thus manipulate the platinum
futures market in a four-step manipulation process that
involved exchanging confidential information during
private conference calls, in violation of the CEA, RICO, the

9a
Appendix C
Sherman Act, and New York law. She alleges that the 2014
class action complaint first apprised her of this conduct,
as well as the identities of some of the parties involved.
Levy filed an amended complaint on January 14, 2016, and
a second amended complaint on April 4, 2016. On August
31, 2016, Defendants-Appellees moved to dismiss Levy’s
second amended complaint. The district court granted
the motion, finding that Levy’s federal claims were time
barred, and declined to exercise supplemental jurisdiction
over her remaining state law claims. Levy v. BASF Metals
Ltd., 2017 WL 2533501, at *9.
DISCUSSION
We review de novo “[a] district court’s interpretation
and application of a statute of limitations.” Muto v. CBS
Corp., 668 F.3d 53, 56 (2d Cir. 2012). “Federal courts . . .
generally apply a discovery accrual rule when a statute
is silent on the issue . . . .” Rotella v. Wood, 528 U.S. 549,
555, 120 S. Ct. 1075, 145 L. Ed. 2d 1047 (2000); see also
Koch v. Christie’s Int’l PLC, 699 F.3d 141, 148 (2d Cir.
2012). In applying this rule, it is “discovery of the injury,
not discovery of the other elements of a claim,” that “starts
the clock.” Rotella, 528 U.S. at 555. We have not yet applied
this general rule to CEA claims. We do so now and hold
that Levy’s CEA claims accrued when she discovered her
CEA injury. This happened when she suffered her losses in
2008. Thus, the CEA’s two-year limitations period expired
before she initiated the present suit in September 2015.
7 U.S.C. § 25(c).

10a
Appendix C
Levy contends that the district court mistakenly
conflated the date she suffered her losses with the date
her CEA claims accrued. The relevant inquiry, however,
is not whether Levy had discovered the identity of the
defendants or whether she had discovered the manipulation
scheme she alleges in her complaint. Rather, the question
is when Levy discovered her CEA injury—that is, a
loss that was the result of a CEA violation. See 7 U.S.C.
§ 25(a)(1) (providing a cause of action for someone who
suffers “actual damages” “caused by” a CEA violation);
Cancer Found., Inc. v. Cerberus Capital Mgmt., LP, 559
F.3d 671, 674 (7th Cir. 2009) (“A plaintiff does not need to
know that his injury is actionable to trigger the statute
of limitations. The focus is on the discovery of the harm
itself, not the discovery of the elements that make up a
claim.”); cf. Kronisch v. United States, 150 F.3d 112, 121
(2d Cir. 1998) (“[A] claim will accrue when the plaintiff
knows, or should know, enough of the critical facts of injury
and causation to protect himself by seeking legal advice.”
(internal quotation marks omitted)).
Here, Levy alleges that, by August of 2008, “prices
started to fall for no apparent reason and without any
fundamental reason.” App’x at 260-61 ¶ 417. And, by the
end of 2008 “the market price had dropped by over 50%,”
which Levy describes as “an extraordinary, unprecedented
and unjustified sudden collapse.” App’x at 262 ¶ 423.
Levy further alleges that there was “no explanation for
this sudden drop in price, other than market distortion
due to manipulation.” App’x 261 ¶ 419. In light of these
allegations, we have little difficulty concluding that Levy

11a
Appendix C
discovered her CEA injury in 2008. Once Levy was aware
of this injury, the CEA gave her two years to ascertain
the facts necessary to bring her suit. 7 U.S.C. § 25(c).
Levy primarily argues that she was not on inquiry
notice of her present CEA claims until 2014 when a group
of investors filed a class action lawsuit against Appellees.
See generally In re Platinum and Palladium Antitrust
Litig., 2017 WL 1169626. It is true that we have held
that where “the circumstances known to” a plaintiff,
“as alleged in the complaint, were such as to suggest
to a person of ordinary intelligence” that she has been
defrauded, “a duty of inquiry” may arise that commences
the CEA’s two-year limitations period. Benfield v. Mocatta
Metals, 8 Corp., 26 F.3d 19, 22 (2d Cir. 1994); see also id.
at 23 (finding constructive knowledge where the loss of
an entire investment within a four-month period “should
have caused eyebrows to raise” and imposed a “duty of
inquiry that would . . . have disclosed the nature and extent
of” the fraud). However, this is not an inquiry notice case.
The district court held, and we now hold, that Levy had
actual knowledge of her CEA injury in 2008. Levy v. BASF
Metals Ltd., 2017 WL 2533501, at *5. That knowledge of
her CEA injury “start[ed] the clock,” irrespective of when
she discovered the additional information necessary for
her to bring her suit. See Rotella, 528 U.S. at 555.

12a
Appendix C
CONCLUSION
For the foregoing reasons, and the reasons stated in
the summary order we publish simultaneously with this
opinion, we AFFIRM the district court’s dismissal of this
action.

13a
APPENDIX D —Appendix
ORDER D
OF THE UNITED
STATES COURT OF APPEALS FOR THE SECOND
CIRCUIT, DATED FEBRUARY 28, 2019
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMM A RY ORDER DO NOT
HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY
1, 2007, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE
32.1 AND THIS COURT’S LOCAL RULE 32.1.1. WHEN
CITING A SUMMARY ORDER IN A DOCUMENT
FILED WITH THIS COURT, A PARTY MUST CITE
EITHER THE FEDER A L A PPENDI X OR A N
ELECTRONIC DATABASE (WITH THE NOTATION
“SUMMARY ORDER”). A PARTY CITING A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY PARTY
NOT REPRESENTED BY COUNSEL.
At a stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square, in
the City of New York on the 28th day of February, two
thousand nineteen.

14a
Appendix D
No: 17-3823-cv
SUSAN LEVY,
Plaintiff-Appellant,
v.
BASF METALS LIMITED, BASF CORPORATION,
GOLDMAN SACHS INTERNATIONAL,
GOLDMAN SACHS GROUP, INC., GOLDMAN
SACHS & CO., GOLDMAN SACHS EXECUTION
& CLEARING, L.P., ICBC STANDARD BANK
PLC, UBS AG, UBS SECURITIES LLC, HSBC
BANK USA, N.A., LONDON PLATINUM AND
PALLADIUM FIXING COMPANY LIMITED,
Defendants-Appellees1
PRESENT: RALPH K. WINTER,
ROSEMARY S. POOLER,
		
Circuit Judges.
RONNIE ABRAMS, 2
		
District Judge.

1. The Clerk of the Court is directed to amend the caption
as above
2. Judge Ronnie Abrams, United States District Court for
the Southern District of New York, sitting by designation.

15a
Appendix D
ON CONSIDERATION WHEREOF, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of said District Court be and it hereby is
AFFIRMED.
Appellant Susan Levy, an attorney proceeding pro
se, appeals from the October 19, 2017, judgment of the
United States District Court for the Southern District
ofNew York (Woods, J.), dismissing her second amended
complaint as time barred and denying leave to amend.
We assume the parties’ familiarity with the underlying
facts, procedural history, and specification of issues for
review. We review the district court’s “interpretation
and application of a statute of limitations” de novo. City
of Pontiac Gen. Emps.’ Ret. Sys. v. MBIA, Inc., 637 F.3d
169, 173 (2d Cir. 2011).
We review the district court’s denial of equitable
tolling and leave to amend, as well as its discovery orders,
for abuse of discretion. McCarthy v. Dun & Bradstreet
Corp., 482 F.3d 184, 200 (2d Cir. 2007) (leave to amend);
Torres v. Barnhart, 417 F.3d 276, 279 (2d Cir. 2005)
(equitable tolling); DG Creditor Corp. v. Dabah, 151 F.3d
75, 79 (2d Cir. 1998) (discovery orders).
Levy first challenges the dismissal of her claims as
time barred. Levy’s second amended complaint asserted
claims under the Commodities and Exchange Act (“CEA”),3
Racketeer Influenced and Corrupt Organizations Act
3. We address Levy’s CEA claims in a separate opinion,
which we issue simultaneously with this summary order.

16a
Appendix D
(“RICO”), and the Sherman Act. “RICO claims are subject
to a four-year statute of limitations,” which begins to
run “upon the discovery of the injury.” Koch v. Christie’s
Int’l PLC, 699 F.3d 141, 148, 150 (2d Cir. 2012). Likewise,
claims under the Sherman Act “shall be forever barred
unless commenced within four years after the cause of
action accrued.” 15 U.S.C. § 15b. A cause of action under
the antitrust laws accrues “when a defendant commits an
act that injures a plaintiffs business.” Zenith Radio Corp.
v. Hazeltine Research, Inc., 401 U.S. 321, 338 (1971); see
also id. at 339 (“[I]f a plaintiff feels the adverse impact
of an antitrust conspiracy on a particular date, a cause of
action immediately accrues to him to recover all damages
incurred by that date and all provable damages that will
flow in the future from the acts of the conspirators on that
date.”). We agree with the district court that the statute
of limitations for Levy’s RICO and Sherman Act claims
began to run in 2008. Levy had actual notice of her injuries
in 2008 when she was forced to pay a margin call and lost
her entire investment. Therefore, Levy’s complaint, which
she did not file until 2015, was not timely.
The district court did not abuse its discretion by
denying Levy the benefit of equitable tolling. As the
district court explained, equitable tolling applies only
in “rare and exceptional circumstance[s]” where (1)
a plaintiff is “prevented” from filing her complaint in
a timely manner and (2) a plaintiff has “acted with
reasonable diligence throughout the period [s]he seeks
to toll.” Smith v. McGinnis, 208 F.3d 13, 17 (2d Cir. 2000)
(internal quotation marks omitted); see also Johnson v.
Nyack Hosp., 86 F.3d 8, 12 (2d Cir. 1996) (observing that

17a
Appendix D
equitable tolling is appropriate when a plaintiff “has been
prevented in some extraordinary way from exercising
[her] rights” (internal quotation marks omitted)). The
district court concluded that Levy’s previous complaint,
which she filed in 2012 asserting various claims based on
the same financial losses at issue here, demonstrated that
she was aware that she had been injured and that she was
capable of pursuing in her legal remedies. We agree with
its analysis.
Nor can we say that the district court abused its
discretion by denying Levy leave to amend her complaint.
Indeed, Levy, an attorney, had already amended her
complaint twice. Moreover, as explained above, Levy’s
claims were time barred. Under these circumstances, the
district court did not abuse its discretion by concluding
that any further amendment would be futile. See Grace v.
Rosenstock, 228 F.3d 40, 53 (2d Cir. 2000) (“Amendment
would likely be futile if, for example, the claims the
plaintiff sought to add would be barred by the applicable
statute of limitations.”).
Finally, Levy argues that the district court abused
its discretion by staying discovery while the defendants’
motions to dismiss were pending. District courts have
“broad discretion to direct and manage the pre-trial
discovery process.” Wills v. Amerada Hess Corp., 379
F.3d 32, 41 (2d Cir. 2004). Federal Rule of Civil Procedure
26(c)(l) allows district courts to issue protective orders
“to protect a party or person from . . . undue burden or
expense.” The district court cited appropriate factors–
undue burden and expense–in granting the stay of

18a
Appendix D
discovery. We cannot say that this determination was an
abuse of discretion.
We have considered the remainder of Lev y ’s
arguments and find them to be without merit. Accordingly,
the judgment of the district court hereby is AFFIRMED.
FOR THE COURT:
/s/ Catherine O’Hagan Wolfe
Catherine O’Hagan Wolfe, Clerk
United States Second Circuit

19a
Appendix E
APPENDIX E — MEMORANDUM
OPINION AND
ORDER OF THE UNITED STATES DISTRICT
COURT IN THE SOUTHERN DISTRICT OF
NEW YORK, DATED OCTOBER 6, 2017
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
SUSAN LEVY,
Plaintiff,
-vBASF METALS LIMITED, BASF CORPORATION,
GOLDMAN SACHS INTERNATIONAL, GOLDMAN
SACHS GROUP, INC., GOLDMAN SACHS &
CO. INC., GOLDMAN SACHS EXECUTION
& CLEARING, LP, HSBC BANK USA, NA,
ICBC STANDARD BANK PLC, UBS AG, UBS
SECURITIES LLC, LONDON PLATINUM
AND PALLADIUM FIXING COMPANY LTD.,
and JOHN DOES #1-40,
Defendants.
MEMORANDUM OPINION AND ORDER
GREGORY H. WOODS, United States District Judge:
On June 9, 2017, the Court issued an opinion and
order granting Defendants’ motion to dismiss Plaintiff
Susan Levy’s Second Amended Complaint (“SAC”). Dkt.

20a
Appendix E
No. 170. On June 23, 2017, Plaintiff filed a motion for
reconsideration of that opinion and order. Dkt. No. 171
(“Pl.’s Mot.”).1 Defendants’ submitted an opposition on July
7, 2017. Dkt. No. 172. Plaintiff filed a reply in support of
her motion for reconsideration on July 14, 2017. Dkt. No.
I73 (“Pl.’s Reply”).
Motions for reconsideration are governed by Local
Rule 6.3, which provides that the moving party shall
set forth “the matters or controlling decisions which
counsel believes the Court has overlooked.” “Motions for
reconsideration are . . . committed to the sound discretion
of the district court.” Immigrant Def. Project v. U.S.
Immigration and Customs Enforcement, No. I4-cv-6II7
(JPO), 2017 WL 2126839, at *1 (S.D.N.Y. May 16, 2017)
(citing cases). “Reconsideration of a previous order by
the Court is an extraordinary remedy to be employed
sparingly.” Ortega v. Mutt, No. 14-cv-9703 (JGK), 20I7
WL 1968296, at *1 (S.D.N.Y. May 11, 2017) (quoting
Anwar v. Fairfield Greenwich Ltd., 800 F. Supp. 2d 571,
572 (S.D.N.Y. 2011)). As such, reconsideration should
be granted only when the moving party “identifies an
intervening change of controlling law, the availability of
new evidence, or the need to correct a clear error or
prevent manifest injustice.” Robinson v. Disney Online,
152 F. Supp. 3d 176, 185 (S.D.N.Y. 2016) (quoting Kolel
Beth Yechiel Mechil of Tartikov, Inc. v. YLL Irrevocable
Trust, 729 F.3d 99, 104 (2d Cir. 2013)) (internal quotation
marks omitted).

184.

1. Plaintiff’s motion was re-filed on the docket as Dkt. No.

21a
Appendix E
Plaintiff has not identif ied any g rounds for
reconsideration of the Court’s order. Her arguments
concerning the discovery accrual rule and the relevance
of inquiry notice are unavailing, as the Court determined
that Plaintiff had actual notice of her injury as early
as 2008. Plaintiff does not point to any new facts or
controlling law that the Court overlooked in reaching this
conclusion. In addition, Plaintiff’s insistence that she is
entitled to equitable tolling does not persuade the Court
that it overlooked the relevant law in determining that,
as a matter of fairness, Plaintiff is not entitled to tolling
of her claims when she had actual notice of her injury
seven years prior to filing her lawsuit.
Finally, Plaintiff’s contention that she “did not think
that she even needed to address” the legal issues that
formed the basis of the Court’s decision is not a grounds
for reconsideration. Pl.’s Reply at 3. While Ms. Levy is
proceeding pro se in this action, she is an attorney, and
is therefore not entitled to the special solicitude afforded
to non-attorney pro se litigants. See Gundlach v. IBM
Japan, Ltd., 983 F. Supp. 2d 389, 393 (S.D.N.Y. 2013),
aff’d sub nom. Gundlach v. Int’l Bus. Machs. Inc., 594
F. App’x 8 (2d Cir. 2014). Accordingly, Plaintiff’s motion
for reconsideration is DENIED.
The Clerk of Court is directed to terminate the
motion pending at Dkt. No. 184.

22a
Appendix E
SO ORDERED.
Dated: October 6, 2017
New York, New York
/s / Gregory H. Wood s
GREGORY H. WOODS
United States District Judge

23a
Appendix F
APPENDIX F — MEMORANDUM
OPINION AND
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE SOUTHERN DISTRICT
OF NEW YORK, FILED JUNE 9, 2017
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK
1:15-cv-7317-GHW
SUSAN LEVY,
Plaintiff,
-vBASF METALS LIMITED, BASF CORPORATION,
GOLDMAN SACHS INTERNATIONAL, GOLDMAN
SACHS GROUP, INC., GOLDMAN SACHS &
CO. INC., GOLDMAN SACHS EXECUTION
& CLEARING, LP, HSBC BANK USA, NA,
ICBC STANDARD BANK PLC, UBS AG, UBS
SECURITIES LLC, LONDON PLATINUM AND
PALLADIUM FIXING COMPANY LTD.,
AND JOHN DOES #1-40,
Defendants.
June 9, 2017, Decided
June 9, 2017, Filed

24a
Appendix F
MEMORANDUM OPINION AND ORDER
GREGORY H. WOODS, United States District Judge:
I.

INTRODUCTION

For the last nine years, Plaintiff Susan Levy has
been searching for someone to make her whole for a
failed investment. In 2008, Ms. Levy, an attorney, lost
her entire investment in New York Mercantile Exchange
(“NYMEX”) futures contracts for the precious metal
platinum. Four years later, in 2012, Ms. Levy filed a
lawsuit in the U.S. District Court for the Eastern District
of New York, alleging that various NYMEX traders and
John Doe defendants colluded to crash the market and
manipulate the price of these contracts, thereby causing
her losses. That case was transferred to this district,
and was voluntarily dismissed following a settlement on
December 3, 2014. She now claims that, thanks to the
information contained in a putative class action complaint
filed on November 25, 2014—when her first lawsuit was
still pending—she has discovered the true cause of her
losses.
The class action complaint alleged that defendants
BASF Corporation (“BASF Corp.”), BASF Metals
Limited (“BASF Metals” and, together with BASF
Corp., “BASF”), Goldman Sachs International (“Goldman
Sachs”), HSBC Bank USA, N.A. (“HSBC”), ICBC
Standard Bank Plc (“ICBC”), UBS AG, UBS Securities
LLC (“UBS Securities” and, together with UBS AG,
“UBS”), and the London Platinum and Palladium Fixing

25a
Appendix F
Company Ltd. (“LPPFC”) manipulated and artificially
suppressed the price of physical platinum and palladium.
A fter copying a significant number of the factual
allegations from the class action complaint, attempting to
connect those facts to her 2008 injury, and adding twenty
John Doe defendants (together with the above-named
financial institutions and organizations, “Defendants”),
Plaintiff filed the complaint in this case in September 2015.
Ultimately, Ms. Levy’s claims—all of which arise out of
the 2008 injury—have been brought too late, and there
is no equitable reason that would permit her to bring yet
another complaint to recover her nearly decade-old failed
investment. Defendants’ motion to dismiss the Second
Amended Complaint (“SAC”) is therefore GRANTED.
II. BACKGROUND1
Ms. Levy’s suit stems from the alleged manipulation
of the futures market for the precious metals platinum
and palladium. Because Ms. Levy relies substantially
on the facts presented in the complaint brought in the
related class action, and incorporates that complaint by
reference, the Court refers the reader to its opinion and
order granting the motion to dismiss that complaint. See
1. Unless otherwise noted, the facts are taken from the
Second Amended Complaint (“SAC”), Dkt. No. 121, and are
accepted as true for the purposes of this Rule 12(b)(6) motion.
See, e.g., Chambers v. Time Warner, Inc., 282 F.3d 147, 152 (2d
Cir. 2002). However, “[t]he tenet that a court must accept as true
all of the allegations contained in a complaint is inapplicable to
legal conclusions.” Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S. Ct.
1937, 173 L. Ed. 2d 868 (2009).

26a
Appendix F
In re Platinum and Palladium Antitrust Litig., 14-cv9391-GHW, Dkt. No. 102 (“Class Action Complaint”); Dkt.
No. 179, 2017 WL 1169626 (S.D.N.Y. Mar. 28, 2017) (“Class
Action Opinion”); see also SAC, Dkt. No. 121, ¶ 260. The
Class Action Opinion contains a more fulsome description
of the London Platinum and Palladium Market (“LPPM”),
the process by which the Defendants “fixed” the price
of these precious metals through a twice-daily auction
process, and Defendants’ alleged collusion to manipulate
the market. Assuming familiarity with the facts presented
in that opinion, the Court summarizes below the facts
relevant to deciding Defendants’ motion to dismiss Ms.
Levy’s complaint.
Ms. Levy purchased NYMEX platinum futures
contracts in 2008. 2 SAC ¶ 155. According to the SAC,
beginning in the summer of 2008, the prices of NYMEX
platinum “began to collapse” and Ms. Levy’s investment
lost value. SAC ¶ 474. On August 15, 2008, Ms. Levy
received a margin call, requiring her to liquidate her
platinum positions and sell her investments at a loss.
SAC ¶ 475. On that day, Ms. Levy alleges that there was
a “seismic gyration crashing the market,” resulting in
her “total losses.” SAC ¶¶ 24, 478, 575. Ms. Levy claims
that this loss was due to collusion between Defendants to
fix the price of precious metal futures contracts through
the London-based auction process. She alleges that
Defendants violated the Commodities Exchange Act, 7
U.S.C. § 1, et seq. (“CEA”), the Sherman Act, 15 U.S.C.
2. Ms. Levy does not provide specific dates for her purchase
of platinum contracts, but on page 130 of her 142-page complaint
notes that she purchased NYMEX Platinum Contracts “in the
winter and spring of 2008.” SAC ¶ 617.

27a
Appendix F
§§ 1-2 and New York State antitrust laws (N.Y. Gen.
Bus. Law § 340, et seq.), and the Racketeer Influenced
and Corrupt Organization Act, 18 U.S.C. § 1961, et seq.
(“RICO”) in working together to manipulate the price of
platinum.
These allegations are not so dissimilar from those Ms.
Levy raised in her 2012 lawsuit. In that case, Ms. Levy
also alleged that various individuals and corporations
colluded to manipulate the price of NYMEX platinum
contracts. See Levy v. Joseph Welsh et al., 12-cv-2056
(E.D.N.Y.), 13-cv-01858 (S.D.N.Y.). 3 There, she alleged
that the defendants in that case—including forty John
Doe defendants—caused “sudden gyrations” in the
market that led to the August 15, 2008 margin call and her
resulting monetary losses. 2012 Am. Compl. ¶ 255. Just as
she does here, in that case, Ms. Levy brought claims under
3. The Court takes judicial notice of the docket sheet and
operative complaint in Levy v. Joseph Welsh et al., 12-cv-2056
(E.D.N.Y.), 13-cv-01858 (S.D.N.Y.) and id. Dkt. No. 63 (“2012
Am. Compl.”). The Second Circuit has explained that the harm in
considering material extraneous to the complaint on a motion to
dismiss is that the plaintiff does not have “notice that the material
may be considered.” See Mangifico v. Blumenthal, 471 F.3d 391,
397 (2d Cir. 2006) (citing Chambers v. Time Warner, Inc., 282 F.3d
147, 153 (2d Cir. 2002)) (holding that “docket sheets are public
records of which the court could take judicial notice”). Because
Ms. Levy herself filed the complaint in the Eastern District of
New York in 2012 and litigated the case through its conclusion, and
because the existence of this previous action was raised in both
Defendants’ motion to dismiss and Plaintiff’s opposition to that
motion, there is no question that she had notice of these materials.
The Court does not, however, take judicial notice of the truth of
the matters asserted in the 2012 Amended Complaint.

28a
Appendix F
the CEA, RICO, and sections 1 and 2 of the Sherman Act
seeking remedies for her 2008 injury. Ms. Levy voluntarily
dismissed the complaint in that lawsuit on December 2,
2014. Levy v. Welsh, 13-cv-01858, Dkt. No. 120.
Although there are a number of similarities between
this case and her previous one, in the complaint in this
action, Ms. Levy borrows heavily from the factual
allegations contained in the Class Action Complaint. SAC
¶ 260 (incorporating by reference the data presented in
the Class Action Complaint). That complaint alleged that
over the class period of January 1, 2008 to November
30, 2014, Defendants worked together to suppress the
price of platinum and palladium at prices lower than
market forces would otherwise have set. Class Action
Compl. ¶¶ 1, 4, 97. As support for this allegation, the
class action plaintiffs presented data demonstrating
large “anomalous” downward spikes in the prices of the
platinum and palladium shortly before the time of the
twice-daily auction calls during which Defendants “fixed”
the price of these precious metals. Class Action Compl.
¶ 92. The Class Action Complaint does not allege, however,
that at any point during the class period Defendants’
alleged price suppression caused the class members to
suddenly lose their entire investment. To the contrary, the
Class Action Complaint notes that palladium prices “have
been in a general upward trend” since the beginning of the
class period and that platinum prices tripled from January
2000 through December 2013. Class Action Compl. ¶¶ 100,
125 & fig. on p. 41.

29a
Appendix F
Because the Class Action Complaint does not suggest
the kind of loss that Ms. Levy alleges in the SAC, Ms.
Levy makes additional allegations in an apparent attempt
to make her 2008 loss cohere with the data asserted in
the class action and the theory of damages that data
was presented to support. First, Ms. Levy argues that
the August 15, 2008 margin call and her resulting loss
occurred when Defendants “decided to crash the market
by covering their short positions.” SAC ¶ 11. Ms. Levy also
states that the Defendants “artificially suppressed prices
en mass in August of 2008,” which caused members of the
public to sell their positions, and that those sales caused
a collapse of the market. SAC ¶ 183. In another part of
the SAC, Ms. Levy contends the August 2008 market
crash was the result of Defendants “selling off their
large holdings in the Physical Market in London to create
fraudulent profits” throughout the winter, spring, and
summer of 2008. SAC ¶ 422. Yet in that same paragraph
she also alleges that the August margin call was “sudden
and unexpected” and later claims that the suppression of
market prices by Defendants was similarly “sudden.” SAC
¶¶ 422, 575. In addition to these disparate and inconsistent
allegations, Ms. Levy alleges that the Defendants caused
the crash on the market by “failing to properly coordinate
their scheme with other precious metals traders who were
also manipulating the market in the same fashion as the
platinum and palladium traders including gold, palladium
and silver.” SAC ¶¶ 11, 485. That is, Ms. Levy contends
that her loss was the result of scheming traders in distinct
markets failing to coordinate their illicit acts well enough.

30a
Appendix F
III.

PROCEDURAL HISTORY

On September 16, 2015, Plaintiff filed the complaint
in this action, alleging causes of action under the CEA,
RICO, sections 1 and 2 of the Sherman Act, New York
State antitrust laws, for unjust enrichment, and for
tortious interference with prospective advantage.
Plaintiff amended her complaint once as a matter of
right in January 2016, and again in April 2016 in response
to Defendants’ March 14, 2016 motion to dismiss. On
August 31, 2016, Defendants again moved jointly to
dismiss the SAC. Dkt. No. 129. In addition to filing a
joint memorandum of law, certain groups of defendants
also filed their own memoranda of law in support of the
motion to dismiss. Dkt. Nos. 132 (BASF), 133 (LPPFC),
134 (UBS), 136 (ICBC). Plaintiff filed her opposition on
September 29, 2016, Dkt. No. 153, and Defendants replied
on October 13, 2016, Dkt. No. 159.
Because the statute of limitations for all of Plaintiff’s
claims has expired, and because there is no equitable
reason to permit tolling of the statute of limitations in
this case, Plaintiff’s CEA, RICO, and Sherman Act claims
are dismissed. The Court declines to extend supplemental
jurisdiction over the remaining state law claims in
Plaintiff’s complaint. Defendants’ motion to dismiss the
SAC is therefore GRANTED.
IV. LEGAL STANDARD
Under Federal Rule of Civil Procedure 8(a)(2), a
complaint must contain “a short and plain statement of

31a
Appendix F
the claim showing that the pleader is entitled to relief.”
Rule 8 “does not require detailed factual allegations,
but it demands more than an unadorned, the-defendantunlawfully-harmed-me accusation.” Ashcroft v. Iqbal, 556
U.S. 662, 678, 129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009).
To survive a motion to dismiss pursuant to Rule 12(b)
(6), a complaint “must contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is plausible
on its face.’” Iqbal, 556 U.S. at 678 (2009) (quoting Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570, 127 S. Ct. 1955, 167
L. Ed. 2d 929 (2007)). “A claim has facial plausibility when
the plaintiff pleads factual content that allows the court to
draw the reasonable inference that the defendant is liable
for the misconduct alleged.” Id. (citing Twombly, 550 U.S.
at 556). “To survive dismissal, the plaintiff must provide
the grounds upon which his claim rests through factual
allegations sufficient ‘to raise a right to relief above the
speculative level.’” ATSI Commc’ns, Inc. v. Shaar Fund,
Ltd., 493 F.3d 87, 98 (2d Cir. 2007) (quoting Twombly, 550
U.S. at 544).
Determining whether a complaint states a plausible
claim is a “context-specific task that requires the
reviewing court to draw on its judicial experience and
common sense.” Iqbal, 556 U.S. at 679. The court must
accept all facts alleged in the complaint as true and draw
all reasonable inferences in the plaintiff’s favor. Burch
v. Pioneer Credit Recovery, Inc., 551 F.3d 122, 124 (2d
Cir. 2008) (per curiam). However, a complaint that offers
“labels and conclusions” or “naked assertion[s]” without
“further factual enhancement” will not survive a motion

32a
Appendix F
to dismiss. Iqbal, 556 U.S. at 678 (citing Twombly, 550
U.S. at 555, 557).
Generally, courts are instructed to read pro se
complaints with “special solicitude” and interpret them
“to raise the strongest arguments that they suggest.”
Triestman v. Fed. Bureau of Prisons, 470 F.3d 471,
474-75, 477 (2d Cir. 2006). However, where plaintiff is an
attorney—as Plaintiff is here—she is not entitled to the
same liberal construction as would other pro se plaintiffs.
Gundlach v. IBM Japan, Ltd., 983 F. Supp. 2d 389, 393
(S.D.N.Y. 2013), aff’d sub nom. Gundlach v. Int’l Bus.
Machs. Inc., 594 F. App’x 8 (2d Cir. 2014); see also Fenner
v. City of N.Y., No. 08-CV-2355, 2009 WL 5066810, at *3
(E.D.N.Y. Dec. 21, 2009) (“Although pro se litigants are
generally entitled to a broad reading of their submissions
because of their lack of familiarity with the law, that is
not the case with attorneys who have chosen to proceed
pro se. It is well settled in the Second Circuit that since
the reason for affording pro se litigants special deference
is not present when the litigant is an attorney, no special
consideration is required.”). As such, the Court will read
the SAC as it would any other counseled complaint.
V. DISCUSSION
At the motion to dismiss stage, dismissal of a
complaint on the grounds that the statute of limitations
has expired is appropriate only if the “complaint clearly
shows the claim is out of time.” Biro v. Condé Nast, 963
F. Supp. 2d 255, 266 (S.D.N.Y. 2013) (quoting Harris v.
City of New York, 186 F.3d 243, 250 (2d Cir. 1999)); see

33a
Appendix F
also Mosdos Chofetz Chaim, Inc. v. RBS Citizens, N.A.,
14 F. Supp. 3d 191, 209 (S.D.N.Y. 2014) (“Because the
defendants bear the burden of establishing the expiration
of the statute of limitations as an affirmative defense,
a pre-answer motion to dismiss on this ground may be
granted only if it is clear on the face of the complaint that
the statute of limitations has run.”) (citation omitted).
Here, Plaintiff repeatedly emphasizes that she suffered
harm in August 2008 when she was issued a margin call
on her platinum investments, and the SAC contains an
affirmative argument for equitable tolling of the statute
of limitations on the basis of fraudulent concealment. SAC
¶¶ 641-46. The untimeliness of Plaintiff’s claims is
apparent on the face of her complaint.
The Court will assume, for purposes of the statute of
limitations analysis, that Plaintiff has otherwise stated
a valid cause of action under each of the federal statutes
she raises in the SAC. See, e.g., 2 Phillip E. Areeda &
Herbert Hovenkamp, Antitrust Law ¶ 320a at 283 (3d Ed.
2007) (“[T]he best way to analyze the limitation issue is to
assume that the antitrust laws have been violated and then
consider when the antitrust cause of action has accrued
and whether other factors may . . . delay the running
of the statute.”). The Court notes, however, that there
are serious questions with regard to the plausibility of
Plaintiff’s allegations. For instance, a significant portion of
the evidence Plaintiff cites as support for the “anomalous
price moves” around the time of the London fixing calls
analyzes data from after 2008—that is, after Plaintiff
alleges she participated in the platinum market. See, e.g.,
SAC ¶¶ 270-82 (discussing price movements in 2009, 2010,

34a
Appendix F
and 2012). That data, while voluminous, does not bolster
the contention that Defendants’ alleged scheme caused
Plaintiff’s specific injury in 2008.
Further, Plaintiff fails to logically tie the theory
underlying the class action data to her injury. Plaintiff’s
injury is not the kind of injury the Class Action Complaint
says occurred as a result of the Defendants’ alleged
manipulation. The class action plaintiffs’ theory of
downward price suppression around the time of the
Fixing—which nevertheless resulted in a three-fold
increase in the price of platinum from 2000 to 2013—
does not explain a sudden market crash and margin call
wiping out an individual’s investment. Finally, Plaintiff
contends that the August 2008 market collapse that led to
her injury occurred because NYMEX traders who were
trading in precious metals other than platinum “failed to
refine their manipulative skills” and poorly coordinated
their contemporaneous schemes with one another. See
SAC ¶ 11 (explaining that the margin call was the result of
platinum traders “generally failing to properly coordinate
their scheme with other precious metals traders who were
also manipulating the market in the same fashion as the
platinum and palladium traders including gold, palladium
and silver”); id. ¶¶ 479-86. Essentially, Plaintiff alleges
that Defendants failed to be good schemers with other
parties who also happened to be orchestrating their own,
independent manipulative schemes in markets separate
and distinct from the platinum market at issue in this
case. Those other parties are not named as defendants
in this action. While the Court is thus aware that there
are potential questions as to whether the SAC states
a plausible legal claim, it need not reach that issue

35a
Appendix F
here, because all of Plaintiff’s claims are barred by the
applicable statutes of limitations.
A.

Plaintiff’s CEA Claims Are Untimely

Plaintiff brings various claims under the Commodities
Exchange Act, arguing generally that Defendants
manipulated the market, made false and misleading
reports about the prices of platinum, and violated the
antifraud provisions of that statute. Claims brought
under the CEA must be raised “not later than two years
after the date the cause of action arises.” 7 U.S.C. § 25(c).
Although the CEA does not define when a cause of action
arises, “courts apply a ‘discovery accrual rule’ wherein
‘discovery of the injury, not discovery of the other elements
of a claim, is what starts the clock.’” In re Commodity
Exch., Inc., 213 F. Supp. 3d 631, 2016 WL 5794776, at
*27-28 (S.D.N.Y. 2016) (quoting In re LIBOR-Based Fin.
Instruments Antitrust Litig., 935 F. Supp. 2d 666, 697
(S.D.N.Y. 2013) (other citations omitted)). A plaintiff has
discovered an injury under the CEA when “circumstances
would have suggested to a person of ordinary intelligence
the probability that he had been defrauded.” Shak v.
JPMorgan Chase & Co., 156 F. Supp. 3d 462, 473-74
(S.D.N.Y. 2016).
Plaintiff contends that her cause of action accrued
in December 2014 when the class action was filed, and
that the case she filed in 2012 “in no way apprised her of
the conspiratorial actions of the defendants herein.” Pl.’s
Opp’n at 5. However, Plaintiff discovered her injury, thus
beginning the statute of limitations for her CEA claims,
as early as June 2008 and no later than August 15, 2008,

36a
Appendix F
when she was forced to pay a margin call and lost her
entire investment. That is, Plaintiff had actual notice
of her injury almost seven years before filing the SAC.
Moreover, Plaintiff brought CEA claims against other
defendants in 2012. See Levy v. Joseph Welsh, et al., 12cv-2056 (E.D.N.Y.), 13-cv-01858 (S.D.N.Y.). Having filed
a lawsuit asserting a cause of action under the CEA for
the same financial loss asserted here, there is no doubt
that Plaintiff had discovered her injury more than two
years before initiating this case. Because Plaintiff had
actual notice of her injury in 2008, her 2015 CEA claims
are untimely and are therefore barred absent equitable
tolling.
B. Plaintiff’s RICO Claims Are Untimely
Plaintiff also alleges that Defendants were part of
an illegal racketeering enterprise in violation of RICO.
Plaintiff also brought these claims too late. RICO claims
are subject to a four-year statute of limitations. Rotella
v. Wood, 528 U.S. 549, 553, 120 S. Ct. 1075, 145 L. Ed. 2d
1047 (2000). As with the CEA, the RICO statute is silent
as to when a RICO cause of action accrues. Thus, as with
CEA claims, the Second Circuit has adopted a “discovery
accrual rule” for RICO claims where “discovery of the
injury, not discovery of the other elements of a claim, is
what starts the clock.” Koch v. Christie’s Int’l. PLC, 699 F.
3d 141, 148 (2d Cir. 2012) (quoting Rotella, 528 U.S. at 555).
As stated above, Plaintiff had actual notice of her
injury by August 2008. As with her claims under the
CEA, Plaintiff’s argument that she did not know of the
specific wrongdoing of the specific defendants in this

37a
Appendix F
case has no significance in light of RICO’s accrual rule,
as courts have held that a plaintiff need not know all of
the specific elements of the claim in order for the statute
of limitations to run, which includes knowledge of the
Defendants’ identities. See, e.g., Robert L. Kroenlein Tr.
ex rel. Alden v. Kirchhefer, 764 F.3d 1268, 1278 (10th Cir.
2014) (“[A] RICO victim need not have actual knowledge of
exactly who committed the RICO predicate act resulting
in the injury for a civil RICO claim to accrue.”). Because
Plaintiff had actual notice of her injury by August 2008,
her claims accrued at that time—seven years before she
filed her complaint. Plaintiff’s claims are not timely and
are therefore barred absent equitable tolling.
D.

Plaintiff’s Antitrust Claims Are Untimely

Plaintiff alleges that Defendants’ alleged manipulation
of the platinum and palladium market constitutes a
conspiracy in restraint of trade in violation of Section 1
of the Sherman Act, and that LPPFC monopolized the
market for these precious metals in violation of Section 2
of the Sherman Act. The statute of limitations for a claim
of antitrust injury under the Sherman Act is four years
from the date of accrual. 15 U.S.C. § 15(b). The Supreme
Court has explained that
[g]enerally, a cause of action accrues and the
statute begins to run when a defendant commits
an act that injures a plaintiff’s business . . .
[T]his has usually been understood to mean
that each time a plaintiff is injured by an act
of the defendants a cause of action accrues to
him to recover the damages caused by that act

38a
Appendix F
and that, as to those damages, the statute of
limitations runs from the commission of the act.
Zenith Radio Corp. v. Hazeltine Research, Inc., 401 U.S.
321, 338, 91 S. Ct. 795, 28 L. Ed. 2d 77 (1971). The Court
analyzes claims under section 1 of the Sherman Act
differently than it does claims under section 2.
i.

Section 1 Claims

Section 1 of the Sherman Act prohibits contracts,
combinations, and conspiracies in restraint of trade. 15
U.S.C. § 1. Plaintiff alleges that Defendants conspired
to manipulate the prices of NYMEX platinum by
purposefully fixing the prices . . . to be artificially lower
and/or higher than the normal market prices.” SAC
¶ 567. This conduct allegedly caused her injury when, as
a direct purchaser of NYMEX Platinum contracts, she
was forced to pay higher than normal prices for inflated
contracts, and suffered losses in August 2008 when the
market crashed. SAC ¶¶ 557, 572, 575.
Under Zenith’s accrual rule, “if a plaintiff feels the
adverse impact of an antirust conspiracy on a particular
date, a cause of action immediately accrues to him to
recover all damages incurred by that date and all provable
damages that will flow in the future from the acts of the
conspirators on that date,” assuming the plaintiff sues
within the requisite four years from the accrual date.
Zenith Radio Corp., 401 U.S. at 339. There are exceptions
to this accrual rule if the damages plaintiff alleges are
speculative, or if the alleged antitrust violation consists
of a series of acts that continue to harm plaintiff over

39a
Appendix F
time. Under the speculative damages exception, if the
“amount and nature [of the alleged antitrust damages]
are unprovable,” courts will not apply the normal accrual
rule for the Sherman Act’s four-year statute of limitations.
Rite Aid Corp. v. Am. Ex. Travel Related Servs. Co., 708
F. Supp. 2d 257, 266 (E.D.N.Y. 2010); see Higgins v. N.Y.
Stock Exch., Inc., 942 F.2d 829, 832 (2d Cir. 1991) (“The
only exception to the date-of-injury rule is the rare case
in which the damages caused by an antitrust injury are so
speculative that the court is unwilling to estimate them.”).
This rule does not require that damages be calculable to
the point of “mathematical precision,” but a court will
apply the exception if it cannot “reasonably estimate[]”
the nature or amount of damages alleged. Rite Aid Corp.,
708 F. Supp. 2d at 266.
In addition to the speculative damages exception,
courts will not apply the date-of-injury accrual rule in the
case of a continuing antitrust violation. When an alleged
violation “consists of a series of acts that repeatedly
invade a plaintiff’s interest and continue over time, a cause
of action may accrue each time the plaintiff is injured
anew.” Id. at 267. In that circumstance, the statute of
limitations would not only run from the initial antitrust
act, but would run from each “overt act.” An overt act must
(1) be “new and independent” from the previous antitrust
violation, and (2) “inflict new an accumulating injury on the
plaintiff.” Id. at 268 (citing DXS, Inc. v. Siemens Med. Sys.,
Inc., 100 F.3d 462, 467 (6th Cir. 1996)) (internal quotation
marks omitted). Each overt act that makes up a continuing
antitrust violation begins the statutory period, although a
plaintiff cannot use a separate and “new predicate act as
a bootstrap to recover for injuries caused by other earlier

40a
Appendix F
predicate acts that took place outside the limitations
period.” Klehr v. A.O. Smith, Corp., 521 U.S. 179, 190, 117
S. Ct. 1984, 138 L. Ed. 2d 373 (1997).
Neither the continuing violation exception nor the
speculative damages exception applies here. This is not
the “rare case” described in Higgins where the Court
cannot determine the nature or amount of Plaintiff’s
damages—Plaintiff knows exactly how much she lost when
her investment bottomed out in 2008. See SAC ¶¶ 667-68
(describing monetary damages sought). Additionally, the
antitrust violation alleged in the SAC is not a continuing
violation wherein Plaintiff was injured by multiple distinct
events. Plaintiff only alleges that she suffered harm
following the August 15, 2008 margin call; no other overt
acts subsequent to that injury date would support a later
accrual date for Plaintiff’s Sherman Act claims. As the
exceptions to the date-of-injury rule are inapplicable
here, Plaintiff’s section 1 claims accrued the date she
was injured. At the latest, that date is August 15, 2008.
After that date, any injury that could be traced to the
antitrust violation ceased. She thus could have brought
her claim within four years of that accrual date—that is,
no later than August 2012. Because Plaintiff did not bring
her section 1 claim within the statute of limitations, that
claim is untimely.
ii.

Section 2 Claims

Section 2 of the Sherman Act prohibits monopolization
of a relevant market. 15 U.S.C. § 2. Plaintiff alleges that
LPPFC, through its four members, monopolized “the
interstate trading of Physical and NYMEX Platinum

41a
Appendix F
Futures Contracts for delivery in 2008 to 2014.” SAC
¶ 586. She claims that LPPFC acquired and maintained
monopoly power during the relevant time period,
“foreclos[ing] competitors such as plaintiff herein from
effectively competing in the market . . . [and] causing
plaintiff as a competitor to lose her holdings by being
squeezed out of the Market.” SAC ¶ 590. As with her
section 1 claims, Plaintiff contends that Defendants’
section 2 violations caused her monetary losses “starting
in the summer or [sic] 2008 and thereafter when
defendants were price-fixing by artificially suppressing
prices.” SAC ¶ 591.
The Second Circuit has held that, with regard to the
statute of limitations for section 2 claims, the accrual of
the cause of action depends on whether the plaintiff is a
purchaser or a competitor. A purchaser in a monopolized
market does not suffer harm “until the monopolist actually
exercises its illicit power to extract an excessive price.”
Berkey Photo, Inc. v. Eastman Kodak Co., 603 F.2d 263,
295 (2d Cir. 1979). A monopolists’ competitor, by contrast,
“may be injured at the time the anticompetitive conduct
occurs.” Id.
Here, Plaintiff alleges that she is a competitor of
Defendant LPPFC, meaning that her section 2 claims
accrued at the time the monopolistic conduct occurred.4
Even so, Plaintiff suffered no new harm attributable to
any given actor in any platinum market after August 15,
4. As noted above, there are significant issues regarding the
plausibility of many of Ms. Levy’s assertions—including that she,
as the holder of approximately $280,000 in leveraged platinum
options, was a competitor of the LPPFC.

42a
Appendix F
2008, when she lost her investment and exited that market.
Because all Sherman Act claims accrue “when a defendant
commits an act that injures a plaintiff’s business,” and
Plaintiff’s injury occurred in 2008, she had four years from
the date of her injury to file her section 2 claim against
LPPFC. Because she filed this complaint in 2015—seven
years after her injury—her section 2 claim is untimely.
C.

Plaintiff is Not Entitled to Equitable Tolling5

Recognizing that her claims are untimely, Plaintiff
argues that she is entitled to equitable tolling because
Defendants fraudulently concealed their unlawful conduct.
The doctrine of equitable tolling should only be applied in
“rare and exceptional circumstances.” Smith v. McGinnis,
5. In her opposition to Defendants’ motion to dismiss, Plaintiff
argues that she is “automatically entitled to a tolling of the statute
of limitations at this stage of the litigation, since she filed while the
Class Action is still pending.” Pl’s Opp’n at 3. The Supreme Court
has held that, in the context of an individual plaintiff who files a
suit separately from a pending class action, “the commencement
of a class action suspends the applicable statute of limitations as
to all asserted members of the class who would have been parties
had the suit been permitted to continue as a class action.” Crown,
Cork & Seal Co. v. Parker, 462 U.S. 345, 353-54, 103 S. Ct. 2392, 76
L. Ed. 2d 628 (1983) (quoting American Pipe & Const. Co. v. Utah,
414 U.S. 538, 554, 94 S. Ct. 756, 38 L. Ed. 2d 713 (1974)); see also
In re WorldCom Sec. Litig., 496 F.3d 245, 254-55 (2d Cir. 2007)
(holding that American Pipe tolling applies to class members
who file individual suits before class certification is resolved).
This tolling doctrine is inapplicable in this case, however, because
Plaintiff’s claims accrued—and expired—long before the class
action litigation was commenced. Thus to the extent Plaintiff seeks
tolling of her statutes of limitations, she seeks tolling for the seven
years between her injury and filing of the SAC in September 2015.

43a
Appendix F
208 F.3d 13, 17 (2d Cir. 2000). The Second Circuit has
found tolling to be appropriate where “extraordinary
circumstances” prevented the plaintiff from filing a
complaint on time and where “the party seeking equitable
tolling . . . acted with reasonable diligence throughout the
period he seeks to toll.” Id. (citing Johnson v. Nyack Hosp.,
86 F.3d 8, 12 (2d Cir. 1996)). The doctrine of equitable
tolling is applied in the district court’s discretion “as a
matter of fairness” when a plaintiff has been prevented
from exercising her rights. Id. A court’s decision to apply
or decline to apply equitable tolling is reviewed for abuse
of discretion. Zerilli-Edelglass v. N.Y.C. Transit Auth.,
333 F.3d 74, 81 (2d Cir. 2003).
Plaintiff contends that equitable tolling should apply
on the basis of fraudulent concealment. In order for
equitable tolling to be available on that basis, a plaintiff
must prove that (1) the defendant concealed the existence
of the unlawful conduct; (2) the plaintiff remained ignorant
of the violation until sometime within the statute of
limitations, and (3) this continuing ignorance was not the
result of a lack of diligence. In re London Silver Fixing,
Ltd. Antitrust Litig., 213 F. Supp. 3d 530, 2016 WL
5794777, at *24-25 (S.D.N.Y. 2016). “A claim of fraudulent
concealment must be pleaded with particularity, in
accordance with the heightened pleading standards of
Rule 9(b).” Id. (citing Hinds Cty., Miss. v. Wachovia Bank
N.A., 700 F. Supp. 2d 378, 399 (S.DN.Y. 2010)).
Here, Plaintiff meets the first prong of the fraudulent
concealment test because the Defendants’ alleged
manipulation and misrepresentation of the Fix Price of
platinum was self-concealing by its very nature. See, e.g.,
In re Nine West Shoes Antitrust Litig., 80 F. Supp. 2d 181,

44a
Appendix F
193 (S.D.N.Y. 2000) (“[S]ince bid-rigging and price-fixing
conspiracies are deemed self-concealing, a plaintiff is not
required to show defendants took independent affirmative
steps to conceal their conduct.”).
Regardless, the Court cannot find the second prong of
the test has been met here, as Plaintiff was not continually
ignorant of the existence of unlawful conduct during the
pendency of the statute of limitations. Plaintiff filed a
similar complaint seeking damages from the same 2008
injury in May 2012. Courts in this district have found
that where a Plaintiff has already filed actions alleging
similar claims against different defendants, “declining
to apply equitable tolling to Plaintiff’s claims would not
prevent plaintiff from having his day in court.” Wang v.
Palmisano, 51 F. Supp. 3d 521, 533 (S.D.N.Y. 2014). In
Wang v. Palmisano, the court found that a plaintiff who
had previously brought an action against defendant’s
employer alleging the same claims could not demonstrate
why enforcing the statute of limitations would be unfair “in
light of Plaintiff’s decision to bring parallel actions against
[other defendants] over the course of a half-decade.” Id.;
see also Parada v. Banco Industrial De Venezuela, C.A.,
753 F.3d 62, 71 (2d Cir. 2014) (finding that plaintiff was
not entitled to equitable tolling when her actions “showed
that she was capable of taking legal action much earlier”).
In this case, Plaintiff knew of her loss in August
2008. She also knew of potential causes of action in 2012,
when she brought a lawsuit alleging claims under the
CEA, RICO, and the Sherman Act. She named John Doe
defendants in that action, and could have determined
if other relevant parties were complicit in the alleged

45a
Appendix F
price manipulation of NYMEX precious metals contracts
over the more than two years that case remained active.
Plaintiff voluntarily dismissed her first complaint in
December 2012 after a settlement was reached between
the parties. Despite her contention that the Class Action
Complaint alerted her to Defendants’ alleged wrongdoing,
she did not learn anything new about her injury or any
potential claims supporting remuneration for her injury
by virtue of the November 2012 Class Action Complaint.
Indeed, the only thing she potentially did not already know
prior to commencement of the class action is the theory of
price suppression during the time of the Fixing calls. But,
as stated above, the facts Plaintiff alleges to bridge the
gap between that theory and her actual injury were not
included in the Class Action Complaint and raise serious
questions as to the plausibility of her allegations. The
Court does not accept that the Class Action Complaint and
the facts contained in it justify equitable tolling. Simply
put, wherever Plaintiff pulled these bridging allegations
from, it was not the Class Action Complaint.
Plaintiff was not “prevented in some extraordinary
way” from pursuing her claims. Johnson, 86 F.3d at 12.
The Court therefore cannot find that “as a matter of
fairness” she is entitled to bring her claims seven years
after her causes of action accrued. Id. Considering all of the
information before it, the Court concludes that equitable
tolling is not warranted here on the basis of fraudulent
concealment or otherwise. Therefore, Plaintiff’s claims
are time-barred.

46a
Appendix F
D.

The Court Declines to Extend Supplemental
Jurisdiction Over Plaintiff’s Remaining State
Law Claims

In addition to her claims under the CEA, RICO, and the
Sherman Act, Plaintiff also asserts state law claims under
New York State antitrust law, for unjust enrichment, and
for tortious interference with prospective advantage, and
notes that this Court may exercise pendent jurisdiction
over those claims pursuant to 28 U.S.C. § 1367(a). Under
28 U.S.C. § 1367(c)(3), the exercise of supplemental
jurisdiction over Plaintiff’s remaining state law claims
is within the Court’s discretion if it has “dismissed
all claims over which it has original jurisdiction.” The
Second Circuit counsels against exercising supplemental
jurisdiction in such a situation: “[I]f the federal claims are
dismissed before trial, even though not insubstantial in a
jurisdictional sense, the state claims should be dismissed
as well.” First Capital Asset Mgmt., Inc. v. Satinwood,
Inc., 385 F.3d 159, 183 (2d Cir. 2004) (quoting Castellano
v. Bd. of Trs., 937 F.2d 752, 758 (2d Cir. 1991)).
Having dismissed all of Plaintiff’s claims that were
based on a federal question under 28 U.S.C. § 1331, and
there being no other basis for federal jurisdiction over
this case, the Court declines to exercise its supplemental
jurisdiction over Plaintiff’s remaining state law claims.
See 28 U.S.C. § 1367(c)(3). Accordingly, those claims are
dismissed.

47a
Appendix F
E. Leave to Amend the Complaint is Denied
Because it Would be Futile
Federal Rule of Civil Procedure 15(a)(2) provides
that leave to amend should be “freely given when justice
so requires.” Because all of Plaintiff’s federal claims are
time-barred, leave to amend the complaint is denied as
futile. See Wallace v. NYC Dept. of Corr., 112 F. App’x
794, 795 (2d Cir. 2004) (affirming a district court’s denial
of leave to amend where the statute of limitations had run
and amendment would be futile).
VI. CONCLUSION
Plaintiff believed that by tweaking her 2012 lawsuit
by adding new parties and copying facts from a class
action complaint, she could find another route to recover
her 2008 losses. This approach cannot succeed. While the
Court recognizes that Ms. Levy feels wronged, plaintiffs
cannot simply file new complaints every time they hear of
a potential avenue of recovery—particularly after years
have passed. Here, Ms. Levy’s federal claims are untimely,
and she is not entitled to equitable tolling of the elapsed
statutes of limitation. Defendants’ joint motion to dismiss
Plaintiff’s Second Amended Complaint is GRANTED.
The Clerk of Court is directed to terminate all
pending motions and to close the case.
SO ORDERED.
Dated: June 9, 2017		
/s/ Gregory H. woods
New York, New York
GREGORY H. WOODS
				United States District Judge

